       PUBLIC
      RELEASE


PATENT AND TRADEMARK OFFICE

       PTO Needs to Refine Its Space
            Consolidation Planning

     Inspection Report No. IPE-9724 / March 1998




     Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                               Final Report IPE-9724
Office of Inspector General                                                                                         March 1998

                                                TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

I.        PTO Should Continue with the Space Consolidation Effort . . . . . . . . . . . . . . . . . . . . . . 8
          A. Justification for the Procurement Is Valid . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
          B. PTO Is Managing Many Aspects of the Space Consolidation Project Well . . . . . . . . 9

II.       PTO Needs to Finalize Its Space Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              11
          A. PTO Has Not Finalized Its Space Allocation Plan . . . . . . . . . . . . . . . . . . . . . . . . .                      11
               1. PTO believes it can turn back unneeded space to GSA . . . . . . . . . . . . . . . .                               12
               2. Not all PTO union agreements are in place . . . . . . . . . . . . . . . . . . . . . . . . .                       13
          B. PTO Has Not Properly Considered Certain Variables in Its Space Planning . . . . . .                                    14
               1. PTO’s requirements ignore reengineering and automation initiatives
                       that could reduce its space needs . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  14
               2. Trademark work-at-home pilot project could reduce PTO’s space
                       requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       18
               3. PTO paid rent on vacant space . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               19

III.      PTO Build-Out Plan Requires Risk Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     22
          A. PTO’s Build-Out Approach Is a Result of Risk Analysis . . . . . . . . . . . . . . . . . . . .                          22
               1. Specifying the build-out with detailed drawings . . . . . . . . . . . . . . . . . . . . .                         22
               2. Specifying detailed price lists for all build-out items . . . . . . . . . . . . . . . . . .                       23
               3. Providing for a build-out allowance for unspecified work effort . . . . . . . . .                                 23
          B. PTO’s Build-Out Allowance Method Contains Considerable Risk . . . . . . . . . . . . .                                  25
               1. Cost risk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   25
               2. Schedule risk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       30

IV.       PTO Has No Interagency Agreement with GSA for the Lease Project . . . . . . . . . . . . .                                 34
          A. GSA’s Fee Structure Is Undefined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             34
               1. GSA’s fee for the build-out effort . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                34
               2. GSA’s scaled fee for the term of lease . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  35
          B. MOU Needs to Address PTO’s Right to Turn Back Unneeded Space to GSA . . . .                                            36
          C. PTO Should Continue Using GSA for the Construction and Management
               of the Lease Development . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             37
U.S. Department of Commerce                                                                               Final Report IPE-9724
Office of Inspector General                                                                                         March 1998

V.        The Department Needs to Improve Its Real Estate Management Oversight . . . . . . . . . 39

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

I.        Space Prospectus Approval Timeline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

II.       Space Acquisition Project Milestones . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44


ATTACHMENT 1                  Patent and Trademark Office’s Response to the Draft Report

ATTACHMENT 2                  Department of Commerce’s Response to the Draft Report

ATTACHMENT 3                  General Services Administration’s Response to the Draft Report
U.S. Department of Commerce                                                                Final Report IPE-9724
Office of Inspector General                                                                          March 1998




                                       EXECUTIVE SUMMARY

In October 1995, the Patent and Trademark Office was granted congressional authorization to
procure up to a 2.4 million rentable square foot1 facility in Northern Virginia to consolidate its
facilities and operations and accommodate space expansion needs. Currently, PTO has
approximately 1.7 million square feet of occupiable space in 16 leased buildings in Crystal City,
Virginia. The bureau’s space needs are expanding, however, owing to a continuing growth in
patent and trademark applications.

On behalf of PTO, the General Services Administration (GSA) plans to award a contract to a
private developer to construct and lease back a new or renovated facility to PTO for at least a 20-
year period. The approved prospectus requires a facility that yields just under 2.0 million
occupiable square feet. In accordance with the congressional authorization, the maximum annual
rent is not to exceed $57.3 million, which equates to $24 per rentable square foot. To
compensate the developer for inflation, the lease rate is escalated at an annual rate of 2.9 percent
from the approval of the prospectus until occupancy of the facility.

In June 1996, GSA issued a Solicitation for Offers (SFO) calling for a 20-year firm lease term,
including defined purchase options. The lease development contract award is anticipated for
October 1998, with occupancy of the first block of space of approximately 1.3 million square feet
to begin in November 2001. Four finalists for the project were selected in March 1997, and their
proposals were received on October 27, 1997. The SFO has broken the award into two phases.
In Phase I, the offerors were evaluated on their development team and experience, their financial
capability, the proposed site of the leased facility, and an environmental assessment of the site. In
the October 27 Phase II proposals, the offerors were to present an update of their Phase I offers,
site development information, the building design, the qualifications of the interior architect, the
qualifications of the operations and maintenance team, the development schedule, and the priced
offer for the entire development project.

The SFO calls for the construction of a base building, to include basic electrical and mechanical
systems (the “cold, dark shell”), which will be “built-out” upon completion of the interior design.
The SFO allows the lease development to be awarded based on the developer’s design of the
cold, dark shell, with the government supplying the build-out interior space allocation plan. The
successful developer will then also design the interior upon award of the lease development
contract. The build-out of the shell is to be accomplished with an allowance of $88 million


        1
            The Congress authorized 2.4 million rentable square feet, which GSA translated to 1.989 million square
feet of occupiable space. See page 2 for the difference between “rentable” and “occupiable.”

                                                        i
U.S. Department of Commerce                                                           Final Report IPE-9724
Office of Inspector General                                                                     March 1998

expressly financed through the lease payments and at least an additional $29 million financed
directly by PTO.

Our inspection revealed that PTO is managing many aspects of the lease development
procurement well. The PTO/GSA procurement strategy and its execution have generally been
successful. PTO has supported the basic requirements for and benefits of the new lease
development based upon its need for modern, contiguous space that (1) is compliant with the
Americans with Disabilities Act and municipal health and safety codes and (2) will ultimately
result in facilities that are more efficient and less expensive than its current facilities. Specifically:

!       Long-term cost savings should be realized because the current leased PTO space is more
        expensive than the $24-per-square-foot target authorized by the Congress and specified in
        the SFO.

!       Significant growth in the number of patent and trademark applications has increased
        PTO’s workload, and the new facility should allow PTO to better meet its future staffing
        and space requirements.

!       Most of PTO’s current leased facilities in Crystal City are in need of alterations to comply
        with fire, safety, and handicapped accessibility laws.

!       Access for PTO and its customers, both to the facility itself and within the public search
        areas, should be improved (see page 8).

While PTO should benefit from this lease development project, maintaining competition in the
PTO space acquisition is critical if the government is to receive the greatest possible benefit from
the project.


Space Planning

Notwithstanding the reasonable strategy and progress on the overall procurement to date, we are
concerned about some aspects of PTO’s planning and management of this enormous and
important procurement. In general, our concerns center on the need for PTO to better define its
space requirements. For example:

!       PTO needs to finalize its space requirements. Although only seven months remain
        before the lease award, PTO has not finalized its space requirements. On February 6,
        1998, and in response to our draft report, PTO presented its draft Space Allocation Plan
        dated October 1, 1997. Although this plan describes the bureau’s space requirements in


                                                     ii
U.S. Department of Commerce                                                        Final Report IPE-9724
Office of Inspector General                                                                  March 1998

       detail and supports its need for 1,989,116 occupiable square feet, it cannot be
       incorporated into the lease development contract until it is finalized (see page 11).

!      PTO has not reached an agreement with its bargaining unit employees over working
       conditions related to space requirements. Absent a firm agreement with its union
       employees regarding the amount of space each employee will receive in the new facility,
       PTO cannot prepare its detailed space plans and program of requirements (POR) for the
       build-out of the new facility. At this juncture, given the lack of union agreements, we are
       concerned the build-out requirements and POR will not be defined by the scheduled
       contract award in October 1998. This could cause a major delay in the award schedule
       and an increase in project costs (see page 13).

!      PTO has not factored in the potential savings and efficiencies possible through
       systems reengineering and automation. For years, PTO has invested heavily in systems
       reengineering and automation initiatives. Many of these initiatives are designed to achieve
       greater efficiencies and increased productivity by reducing PTO’s staff and space needs
       and reducing its paper files and the space they require. PTO has only factored some of
       these initiatives, specifically the reduction in paper patent search files, into its planning for
       the new facility. PTO makes the presumption that reengineering and automation
       initiatives will not have a beneficial impact until after occupancy of the new facility. We
       believe that even partial success on only a few of the reengineering initiatives will result in
       some benefit and should reduce PTO’s space requirements (see page 14).

!      PTO paid rent on vacant space. For approximately eight months, from March to
       October 1997, PTO had a large inventory of vacant space that was rented and
       inappropriately set aside for a reorganization of several patent groups by industry sectors,
       in advance of congressional authorization. As a result, PTO carried more than 73,000
       occupiable square feet of vacant space. The total cost of this error was almost $1.5
       million because PTO paid an average of $30 per square foot to rent this vacant space.
       However, this space is currently is use (see page 19).


Build-Out Risk

We are concerned with the methods PTO is employing to pursue the build-out of the cold, dark
shell. PTO’s build-out process needlessly exposes the government to increased cost risk.
Specifically, the project may increase in cost before completion, and be delayed, also resulting in
increased costs (see page 22).

!      PTO’s build-out strategy exposes the bureau to cost overruns. PTO’s build-out
       strategy calls for a pool of $88 million to be set aside for undefined completion, or build-

                                                  iii
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

       out, of the shell of the building. The $88 million build-out allowance will be funded
       through the lease with the developer. In addition, however, PTO is planning to spend at
       least $29 million in additional funds for upgraded building systems and interiors. This
       process is flawed because the lease development project lacks a defined cost ceiling. Our
       specific concerns include the following:

       –       PTO does not have a final budget for the build-out, and there is no ceiling amount
               specified in the SFO to limit the government’s financial exposure (see page 25).

       –       The absence of a defined ceiling for the build-out may act as an incentive for the
               developers to “buy-in” on their initial offers with the hope of “getting well” on the
               inevitable changes to the less precisely defined work (see page 26).

       –       Because of the lack of build-out specifications, the offerors are subject to
               performance risk, which may be incorporated into their offers as cost
               contingencies, increasing the cost to the government (see page 29).

       –       The lack of the build-out specifications increases the likelihood of change orders to
               correct incomplete specifications or correct deficient ones (see page 29).

!      PTO’s build-out strategy exposes the bureau to program delays. The SFO requires
       the government to issue the build-out specifications, or POR, upon lease award in October
       1998. However, PTO has not finalized its space requirements, and cannot develop its
       POR. The lack of this POR describing the build-out exposes the government to schedule
       risk and the likelihood of delay costs and numerous change orders because of incomplete
       specifications. Specifically:

       –       Delays in lease award may result in lease escalation, payment of rent in advance of
               occupancy, or having to pay the cost of the developer’s idle work force. In the
               extreme, a lengthy delay in lease award may result in one or more developers
               losing their financing, potentially resulting in the scuttling of the entire project,
               with the government liable for the withdrawing offerors’ proposal preparation
               costs (see page 30).

       –       Delays in the build-out of the cold, dark shell are to be mitigated by a well-
               conceived array of remedial measures. These measures are contingent, however,
               upon PTO developing the POR upon lease award, as the POR is a condition
               precedent to the entire build-out methodology in the SFO (see page 31).




                                                 iv
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

Lack of an Interagency Agreement with GSA

We are also concerned that PTO does not have a written interagency agreement with the General
Services Administration, defining the rights and obligations of each agency and allocating the
underlying project risk between them. Absent such an agreement, we have identified several key
concerns:

!      The fee structure for GSA’s effort is undefined. Absent a written interagency
       agreement, the fee structure between the agencies is not defined. Discussions between the
       agencies regarding GSA’s fee for managing the build-out have included the possibility of a
       cost-based fee of between three and nine percent of incurred costs. Although recent
       discussions between PTO and GSA focus on fixed fees as a portion of rental payment, we
       have two concerns relevant to a cost-based fee arrangement in the contractual context:

       –       The build-out is not defined by a budgetary ceiling, and GSA is expected to receive
               a percentage of the costs incurred. This equates to a cost-plus-percentage-of-cost
               fee arrangement, which is prohibited by statute (see page 35).

       –       In the event GSA receives any fee above six percent, it would be receiving a fee in
               excess of the statutory ceiling for a cost-type construction or architect-engineering
               contract (see page 35).

!      PTO’s right to turn back unneeded space has not been defined. The two agencies
       have not determined whether, or under what terms, PTO may turn back unneeded space to
       GSA. As the traditional lease holder for the federal government, GSA had, in years past,
       a generous policy of accepting unneeded space from its agency customers. This policy,
       however, may be strained by the sheer magnitude of this lease development, the expiration
       of the Federal Property Management Regulations, and evolving GSA policy regarding
       accepting relinquished leased property. Additionally, it is not clear how PTO’s possible
       change to a performance-based-organization (PBO) would affect its ability or desire to
       turn back space to GSA (see page 36).

!      GSA’s continuing role as construction manager has not been defined. The Public
       Buildings Act specifies that only GSA may construct or manage the construction of
       buildings designated for federal government use. In the event that PTO attains PBO
       status, PTO might be exempt from the federal property statutes and could pursue the
       build-out phase of its lease development project independent of GSA. As the federal
       government expert in construction and construction management, GSA should have a
       continuing role in the completion of the new PTO facility (see page 37).



                                                 v
U.S. Department of Commerce                                                   Final Report IPE-9724
Office of Inspector General                                                             March 1998

Lack of Departmental Oversight

Finally, we are concerned that the Department has not been adequately involved in the PTO lease
development process, one of the largest federal construction or lease projects in the Washington,
D.C., Metropolitan Area.

!      The Department needs to improve its real estate management oversight. The
       Department’s real property staff has not adequately monitored the progress of this
       important lease development project. In particular, the Department has failed to foresee
       PTO’s late start and the slow progress of its union discussions, which are critical in
       determining PTO space requirements, and may delay award of the contract (see page 39).

On page 41, we offer a number of recommendations to address our concerns.




In response to our draft report, PTO agreed to most of our recommendations, but there were
some areas of strong disagreement.

With regard to our recommendation that this lease development project continue, PTO as well as
the Department and GSA, agreed. PTO again emphasized its need to acquire more efficient space
and to lower its rent costs. The Department stated that with all of PTO’s current leases expiring
in the 2000 - 2002 time frame, this is a unique opportunity to consolidate PTO’s operations, while
avoiding future non-competitive lease rates.

Our draft report expressed our concern that PTO had failed to fully determine its space
requirements. Although PTO and GSA did prepare space planning documents, these were several
years old and did not allocate space by projected employee headcount. The SFO contains a
provision allowing PTO to forgo construction of up to 300,000 square feet of occupiable space in
blocks of 100,000 square feet. At the time of our field work, we were concerned that PTO was
not performing an adequate space analysis and was thereby missing its opportunity to build less
space if, in fact, less space was required. We were also concerned that PTO played down the risk
of obtaining too much space because it believed that GSA would be willing to take back unneeded
space.

In the absence of a current, detailed space plan from PTO, we prepared a calculation of PTO’s
space requirements using the now-expired Federal Property Management Regulations (FPMR).
Based on these estimates, we determined that PTO would not need all of the office space in its
prospectus for its projected 7,108 employees in 2001. Using the FPMR guidelines, we calculated
that PTO could forgo the construction of 87,000 occupiable square feet of space. Rounding

                                                vi
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

these calculations, we concluded that PTO should consider forgoing the construction of one block
of 100,000 square feet of office space.

In response to our draft report, PTO submitted a draft Space Allocation Plan, dated October 1,
1997, which had not been previously made available to us. Had we been aware of the existence
and details of this plan (which appears to have been created by PTO prior to the issuance of our
draft report) we would have modified our draft report recommendation that PTO consider
forgoing the construction of at least 100,000 occupiable square feet of office space. This plan
calculates the bureau’s space requirements using a bottom’s up approach from the detailed space
elements, by individual, special or joint purpose, up to a total requirement. We have reviewed the
detailed projections for office space, allocated by headcount, and have now concluded that PTO
has documented its requirements for the 1,989,116 occupiable square feet authorized by the
Congress.

PTO has also advised that its largest labor union, the Patent Organization Professional
Association, has filed a claim against PTO at the Federal Labor Relations Authority, alleging that
the issuance of the SFO without first negotiating space-related working conditions with the union
constituted an unfair labor practice. The lack of resolution of this matter could delay the
development of the POR, which in turn could delay the lease development project.

With regard to our recommendation that PTO consider its reengineering initiatives in the space
requirements, PTO has incorporated space savings in its draft Space Allocation Plan through the
elimination of the paper patent examination search files. Further, PTO and the Department have
responded that the other systems reengineering efforts will not yield space savings until after the
new facility is occupied.

In response to our recommendation that PTO develop an estimate for the build-out of the facility
and establish this as a contractual ceiling, PTO agreed that there should be an absolute limit on the
government’s liability for the build-out, but disagreed that the SFO as drafted does not set such a
limit. Furthermore, PTO said it would be inappropriate to include any reference to the $29
million for above FPMR build-out items in the SFO because the government cannot guarantee
that such funds will be made available or expended. Nor did PTO think it was appropriate to
create a contractual obligation to commit these funds for build-out of the facility.
PTO does not agree that failure to establish a contractual ceiling would increase the project risk to
the government.

PTO has acknowledged that it has no need for its own Contracting Officer’s Representative
(COR) until after the facility has been constructed and lease payments commence. Further, PTO
will propose language in its MOU with GSA to clarify this understanding. When PTO and GSA
do execute a written MOU, PTO will include a clause restricting the bureau from appointing its
COR until after the completion of construction. We agree with this course of action.

                                                 vii
U.S. Department of Commerce                                                   Final Report IPE-9724
Office of Inspector General                                                             March 1998

In response to our recommendation that PTO execute a written MOU with GSA, all parties--
PTO, GSA and the Department--have agreed this should be done. As of this writing, however,
the MOU has not been executed. We encourage PTO and GSA to resolve any remaining issues
of pricing and service delivery. We understand that an MOU between PTO and GSA is in the late
stages of development.

In response to our recommendation that the Department provide oversight, assistance, and
guidance to the PTO space project, the Department has maintained a higher level of involvement
in the project, especially in recent months. The Department has assigned both real property and
procurement personnel to coordinate ongoing planning activities and assist in the source selection
process.

In response to our recommendation that the Department establish effective oversight policies and
procedures for future lease development projects, the Department recently created Chapter 10 of
the Real Property Management Manual. This new chapter describes the Department’s policy
regarding any prospectus-level repair, alteration, construction, or lease project.




                                               viii
U.S. Department of Commerce                                                                Final Report IPE-9724
Office of Inspector General                                                                          March 1998

                                         PURPOSE AND SCOPE

The purpose of this inspection was to review PTO’s planned acquisition of a consolidated
2.4 million rentable square foot2 facility in Northern Virginia in order to determine whether
(1) the facility is justified in terms of cost and other non-cost factors, (2) the expansion of PTO
space is justified by projected workload and staffing projections, (3) PTO is effectively managing
the project, (4) PTO has properly taken into account variables that will affect the size, scope, and
cost of the facility in its plans, and (5) PTO has adequately identified future risks that may alter
the cost of this facility and affect outlays, both during construction and throughout the lease
period.

Our review focused on evaluating the structure and approach that PTO has taken in this
procurement, which will cost PTO at least $1.1 billion over the 20-year lease term. We reviewed
PTO’s program files and all major contract deliverables related to the project. We also analyzed
relevant documents, legislation, and prior lease consolidation studies, and interviewed officials
throughout PTO, the Department, and the General Services Administration (GSA). Our review
was conducted in accordance with the Inspector General Act of 1978, as amended, and the
Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency.




        2
            The prospectus approved by the Congress calls for up to 2.4 million rentable square feet. GSA has
translated this requirement to 1,989,116, or about 2.0 million square feet of occupiable space.

                                                        1
U.S. Department of Commerce                                                                   Final Report IPE-9724
Office of Inspector General                                                                             March 1998

                                                BACKGROUND

PTO’s Mission

The Patent and Trademark Office administers the laws relating to patents and trademarks,
promotes industrial and technical progress, and thereby strengthens the national economy. Patent
law encourages technological advancement by providing incentives to inventors to disclose their
technology and to investors to invest in that technology. PTO’s primary role in administering
these laws is to examine patent applications and grant protection to qualified inventions. In
addition, PTO is responsible for collecting, assembling, publishing, and distributing technical
information disclosed in patent grants. Trademark law assists businesses in protecting the
reputation of their goods and services, and safeguards consumers against confusion and deception
in the marketplace. PTO examines trademark applications and grants federal registration to
owners of qualified marks. In 1996, PTO issued 116,875 patents out of 206,276 applications, and
registered 91,339 trademarks out of 200,640 applications.

Justification for Space Acquisition

Since 1989, PTO, with the assistance of GSA, has been seeking to consolidate its offices. PTO
currently occupies all or parts of 16 building sites in the Crystal City area of Arlington, Virginia,
under 32 separate leases. In addition, PTO leases two warehouse storage facilities in Newington,
Virginia. Some buildings are leased floor by floor, with each floor requiring a separate lease. The
total square footage of PTO’s current space is approximately 1.7 million occupiable square feet,
of which about 1.4 million is office space.3 Much of the difference represents areas for which the
government pays rent, but which are not useful as office space, such as elevator lobbies,
stairways, elevators and elevator shafts, rest rooms and lounges, ventilation stacks, and shafts and
corridors required by local codes and ordinances for minimum safety.4 Currently, PTO has about
6,460 employees, including contractor personnel housed at the various PTO facilities. PTO
projects that by fiscal year 2001, it will grow to over 7,600 employees and require about 2.0
million occupiable square feet of space.

The primary justification for PTO’s new facility development continues to be a 1991 study
prepared by a contractor for GSA, called the Daly Study.5 The Daly Study concluded that PTO’s


        3
           The 1.4 million square foot figure includes “other” and “miscellaneous” space of 89,617 rentable square
feet and “vacant” space of 73,000 rentable square feet.
        4
            Solicitation for Offers, GSA solicitation no. 96.004 at Section A, page 12. Hereinafter referred to as
SFO.

        5
            Prospectus Development Study: Patent and Trademark Office, Leo A. Daly, 1991.

                                                          2
U.S. Department of Commerce                                                                  Final Report IPE-9724
Office of Inspector General                                                                            March 1998

facilities at the time prevented the agency from operating at maximum efficiency, and would not
allow for logical expansion to accommodate the larger staff needed to handle an expected
workload increase. The study concluded that PTO needs would best be met in a cost-effective
manner by consolidating its disparate pieces into a single complex. The study projected that PTO
would grow to more than 8,000 employees by fiscal year 1996 and would require about 2.0
million occupiable square feet that it would begin occupying by that year. These estimates formed
the basis of the prospectus submitted to the Congress.

PTO has stated that its primary reasons for consolidating and expanding its space are: (1) its
current leased facilities in Crystal City are in need of alterations to meet fire, safety, and
handicapped accessibility guidelines; (2) the various PTO technology groups need to be located in
physical proximity to one another for efficient operations, as compared to the current dispersion
of groups and facilities among PTO’s 18 facilities; (3) more space is needed to house significant
staff increases due to the continued growth in patent and trademark applications; and
(4) long-term cost savings can be realized with consolidation and more efficient facilities. PTO’s
current leased office space, procured through 32 separate, sole-source and piecemeal leases, costs
an average of $25.78 per square foot,6 which is higher than the maximum annual rent of $24 per
square foot authorized by the Congress for PTO’s new facility.7 This remains true even after the
$24 per square foot rate is escalated by 2.9 percent per year, for two years, as provided for in the
Solicitation for Offers (SFO), and includes the $88 million build-out allowance. Not included are
the PTO-funded above standard build-out additions.8 Therefore, PTO stands to gain a newer
facility that complies with fire and safety codes and the Americans with Disabilities Act (ADA) at
a lower rate per square foot than it is currently paying.

In a 1992 audit of PTO’s space acquisition project, we found that PTO’s projections for increased
space and staff to support this procurement were overstated.9 We also noted other issues that
could affect PTO’s future space requirements—such as a proposed “work-at-home” program for


        6
         This figure represents the cost that GSA pays to the current landlords for rentable square feet of space.
PTO pays GSA approximately $30 per square foot, after adding agency fees and other costs.

        7
            The maximum annual rent per square foot is derived from the congressional authorization, which
specifies the estimated maximum annual cost of $57 million and a range of 2.2 million to 2.4 million rentable
square feet. The $24 per square foot rate is calculated by dividing the $57 million by the 2.4 million rentable
square feet, the higher amount of the range, rounded up. GSA determined that the $24 per square foot rate was
appropriate for this lease development.
        8
             By comparison, office space at the Ronald Reagan Federal Building and International Trade Center in
the District of Columbia is being leased at a rate of $35 per square foot through fiscal year 1999 (including GSA’s
fees), after which market rates will be applied.
        9
            Future Resource Requirements for PTO Are Overstated, EAD-4421-2-0001, September 30, 1992.

                                                         3
U.S. Department of Commerce                                                         Final Report IPE-9724
Office of Inspector General                                                                   March 1998

some employees and the deployment of the Automated Patent System (APS). As a result of our
1992 report, PTO added a provision to the solicitation that would allow the government to forgo
the construction of up to 300,000 square feet in increments of 100,000 square feet.


History of Prospectus

PTO’s space acquisition process is years behind the original schedule. The primary reason for this
was PTO and GSA’s inability to obtain approval of a prospectus from the Office of Management
and Budget (OMB). It took several years of negotiations and many draft prospectuses to secure
OMB approval. GSA and PTO first submitted a draft prospectus to OMB in the fall of 1991, but
one was not approved until May 1995. Appendix I contains a time line of the many space
prospectuses.

The primary problem at OMB related to the scoring rules as contained in the Omnibus Budget
Reconciliation Act of 1990, which set specific limits on the size of the federal deficit for fiscal
years 1991 through 1995. The rules require that for any purchase, lease-purchase, or capital
lease, the entire cost of the obligation is to be recorded in the first fiscal year for which the budget
authority is made available. However, operating leases are not scored if they meet the criteria set
forth in OMB Circular A-11.

The 20-year lease for PTO, with a maximum annual rental cost of $57 million, would cost a total
of $1.1 billion. Since it contained a purchase option, OMB initially had concerns that this would
require scoring the lease up-front. However, after GSA explained its intent to include language in
the SFO stating that the government would not pay a rent premium for any purchases option, and
to seek both prospectus and budget authority for any actual purchase, OMB concurred that the
project should be scored as a capital lease.


Congressional Approval and Issuance of the SFO

The prospectus was approved by the Senate Committee on Environment and Public Works in
October 1995,10 and by the House Committee on Transportation and Infrastructure the following
month.11 The SFO was issued by GSA on June 26, 1996. In accordance with the approved
prospectus, the SFO calls for a facility of approximately 2.2 to 2.4 million rentable square feet, to


         10
              S. COMM. ON ENVIRONMENT AND PUBLIC WORKS, COMM. RES. 104TH CONG. 1ST SESS. (October 24,
1995).
         11
           H.R. COMM. ON TRANSPORTATION AND INFRASTRUCTURE, COMM. RES. 104TH CONG. 1ST SESS.
(November 16, 1995).

                                                     4
U.S. Department of Commerce                                                                     Final Report IPE-9724
Office of Inspector General                                                                               March 1998

be located within a delineated area of Northern Virginia. The SFO further requires that either the
site be located within walking distance from a Metrorail station or the lessor provide free,
dedicated shuttle bus service to the nearest Metrorail station for PTO employees and customers.
The facility must consist of no more than eight adjacent and interconnected buildings.

The SFO also describes occupiable space as “that portion of rentable space that is available for
PTO’s personnel, equipment, and furnishings.” It does not include space set aside for rest rooms
and lounges, stairwells, elevators and escalator shafts, building equipment and service areas,
entrance and elevator lobbies, and corridors required by local codes and ordinances. Rent will be
paid on the total “gross area” of occupiable and general use space. As specified by the SFO, the
rentable space shall not exceed 2.4 million square feet.


PTO’s Procurement Approach

PTO has pursued a multi-step procurement to obtain its leased facility. The SFO breaks the
award process into two steps, or phases.12 In Phase I, the offerors were evaluated on their
development team and experience, the proposed site of the leased facility, a presentation on their
financial capability, and an environmental assessment of the proposed site. Five Phase I proposals
were received on December 23, 1996. Upon evaluation, one of these offerors was excluded from
the second phase. There was no bid protest at this juncture.

In Phase II, which began on October 27, 1997, the offerors presented an update of their
Phase I offers, site development information, a building design, the qualifications of the interior
architect, the qualifications of the operations and maintenance team, a development schedule, and
the priced offer itself. The lease award is to be made from the four finalists after analysis of their
Phase II offers. A best and final offer (BAFO) process is expected, and the development lease
award is scheduled to be awarded in October 1998.13




         12
              The two-step source selection process was enacted as part of the Defense Authorization Act (Pub.L.
104-106). This law amends Section 303(m) of the Federal Property and Administration Services Act of 1949. The
two-phase source process may be used when three or more offers are expected, and where design work is required
before a cost or price proposal can be developed. In Phase I, the agency selects the number of offerors specified in
the solicitation, or SFO (usually up to five), based on their technical approach, past performance, and specialized
and technical qualifications. Cost or price factors are not used in the initial “shortlisting” of offerors. In Phase II,
the selected contractors develop more detailed proposals, which include cost or price to complete the projects and
address other factors outlined in the solicitation.
         13
           The award date was changed from July 1998 to October 1998, by amendment to the SFO. The award
date was changed at the offerors’ request and to allow more time for environmental planning.

                                                           5
U.S. Department of Commerce                                                    Final Report IPE-9724
Office of Inspector General                                                              March 1998

The SFO calls for the construction of a “cold, dark shell,” which will be “built-out” upon
completion of the interior design. The SFO allows the lease development contract to be awarded
based on the developer’s design of the shell with the government supplying the build-out of the
interior design at the time of lease development award.14 The build-out of the shell is to be
accomplished with an allowance of $88 million dedicated to that purpose, and is expressly
financed through the lease payments. PTO is adding at least an additional $29 million to the
build-out for above-GSA standard accouterments. PTO is just now attempting to finalize its
space use planning to determine the space requirements for its various groups and functions
necessary to accomplish its mission. With the issuance of this final report, PTO has only seven
months to complete its space planning for the entire 2 million square foot facility (see page 11).

The SFO calls for a 20-year firm lease term, with defined purchase options. The maximum annual
rent per the congressional authorization equates to $24 per rentable square foot. Occupancy of
the first block of space of approximately 1.3 million square feet is scheduled to begin in
November 2001. The SFO’s terms allow PTO to forgo the construction and lease of up to
300,000 square feet of building space in increments of 100,000 square feet. If exercised, this
discretionary choice must be made before the development lease award, and therefore before
construction begins.15 At the $24 per square foot rate, forgoing each 100,000 square foot
increment would save the government $2,400,000 in annual lease payments.

Appendix II shows the many milestones of the space acquisition project since inception, as well as
the expected dates of completion of future tasks.


Bid Protest

On June 30, 1997, a formal bid protest was lodged with the General Accounting Office by PTO’s
current landlord, also an offeror on the PTO space consolidation project. The bid protest alleged
that: (1) the SFO provisions were unduly restrictive and exceed the government’s needs in that
they effectively limited competition to new buildings, (2) offerors must bear the costs of
compliance with all environmental and infrastructure requirements before the environmental
impact statement for the chosen site was issued in draft form, (3) the $88 million build-out
allowance violates funding limitations established by the Congress in approving PTO’s
prospectus, and (4) the government’s imposition of $88 million for build-out costs, in the absence
of any consideration of existing build-out costs, unduly prejudiced existing buildings and violated
the sole source requirements of the Federal Acquisition Regulations (FAR). On September 25,
1997, the Comptroller General dismissed the protest as untimely because the protestor knew of

       14
            SFO No. 96.004, at Section D, p. 8.
       15
            SFO No. 96.004, Section A.2.4., p. 2 of 30.

                                                          6
U.S. Department of Commerce                                                                Final Report IPE-9724
Office of Inspector General                                                                          March 1998

the SFO provisions before the Phase I submissions, yet did not challenge the provisions at that
time.16


PTO’s Government Corporation Legislation

In April 1997, the House of Representatives passed a bill, H.R. 400, that would turn PTO into a
performance-based organization (PBO). Under the legislation, PTO would become a government
corporation, and certain technical changes to the patent process would be made. In July, the
Senate responded with S. 507, the Omnibus Patent Act of 1997, which incorporates many of the
provisions contained in H.R. 400.

Under the proposed PBO legislation, PTO may acquire, manage, and dispose of real and personal
property as it considers necessary,17 and would be expressly exempt from the Federal Property
and Administrative Services Act of 194918 and the Public Buildings Act.19 If PTO attains PBO
status, the agency could be completely free of departmental and GSA oversight of its lease
development and other procurement activities.




        16
             Matter of the Charles E. Smith Companies, B-277391, Sept. 25, 1997.
        17
             S. 507, 105th Cong., 1st Sess. §§ 112 (c)(6) through (12).
        18
           Federal Property and Administrative Services Act of 1949, 64 Stat. 583 (codified as amended at
40 U.S.C. § 471 et seq.).
        19
             The Public Buildings Act, Pub.L. 86-249 (codified as amended at 40 U.S.C. § 601 et seq.).

                                                           7
U.S. Department of Commerce                                                                   Final Report IPE-9724
Office of Inspector General                                                                             March 1998

                               OBSERVATIONS AND CONCLUSIONS

I.       PTO Should Continue with the Space Consolidation Effort

Many of PTO’s justifications for this space consolidation lease are valid. PTO is currently housed
in 18 separate (16 office and two warehouse), non-contiguous locations within the Crystal City
complex in Arlington, Virginia. Some of these buildings are almost 30 years old, and many do not
comply with the latest municipal fire codes and the Americans with Disabilities Act.20 In addition,
PTO’s current configuration of disparate and disconnected building spaces is inefficient. Finally,
the government should benefit from less expensive leased space upon completion of the
consolidated PTO facility.

A. Justification for the Procurement Is Valid

PTO has justified the necessity for this procurement in several ways. PTO would benefit from
modern, contiguous space that is compliant with the ADA and municipal fire codes and is less
expensive than the short-term leased space it currently occupies. After careful review of PTO’s
current facilities and plans for its future facilities, we agree with the justifications supporting the
lease space consolidation. Most of PTO’s justifications for the space consolidation focus on
future economic savings and efficiencies, and include the following:

C        Most of PTO’s current leased facilities in Crystal City are in need of alterations to meet
         fire, safety, and handicapped accessibility guidelines.
C        Locating the various PTO technology groups in physical proximity to one another would
         reap benefits through more efficient operations, as compared to the current dispersion of
         groups and facilities among PTO’s current 18 facilities.
C        Significant growth in the number of patent and trademark applications has greatly
         increased PTO’s workload and, therefore, its staffing needs, and the agency does not
         currently have the space to meet future expansion needs.




         20
              The ADA prohibits discrimination on the basis of disability in employment, programs, and services
provided by state and local governments; goods and services provided by private companies; and in commercial
facilities. Signed into law on July 26, 1990, the ADA contains requirements for new construction, alterations or
renovations to buildings and facilities, and improving access to existing facilities of private companies providing
goods or services to the public. The ADA also covers effective communication with people with disabilities, sets
forth eligibility criteria that may restrict or prevent access, and requires reasonable modifications of policies and
practices that may be discriminatory. However, at the time of our review, PTO had not studied exactly what the
space implications were of the ADA requirements on this procurement, nor could it quantify all the ways in which
its current facilities failed to comply with the ADA. However, we were shown examples of non-compliant
conditions, such as narrow aisles in the public search room and in the examiners’ shoes (patent examination files).

                                                          8
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

C      Long-term cost savings should be realized because current leased space, which is procured
       through separate, non-competed and piecemeal leases, is more costly per square foot than
       the target of $24 per square foot that PTO is projecting for its new facility.
C      PTO employees and customers should have improved physical access both to the facility
       and within the public search areas.

We find these justifications to be valid. PTO has a growing workload and is currently occupying
noncontiguous space that is operationally inefficient. Also, PTO’s current space is not in
compliance with current municipal fire code, safety, and ADA requirements. Given that PTO’s
consolidation lease meets the congressionally authorized rent of $24 per square foot, the new
lease should be less expensive per square foot than the space it is currently occupying. PTO is
paying an average of approximately $31 per square foot for its office space in rental and fees to
GSA. GSA, as the government lessee, pays the current landlord an average of $25.78 overall for
the PTO facilities. In addition, the new facility should promote the collocation of various working
groups, thereby improving efficiency and productivity.

B. PTO Is Managing Many Aspects of the Space Consolidation Project Well

PTO is managing many aspects of the lease development contract well. Communications between
PTO and GSA appear to be well-established and open. We believe the SFO demonstrates a great
deal of thoughtfulness and a creative, solid design for the two-step process used in procuring the
leased facility.

The use of the two-step procurement process also appears to be working well for PTO. Although
the field was narrowed by only one offeror (from five to four) in progressing from Phase I to
Phase II, the separation of selection criteria between the two phases conserved the government’s
resources in the evaluation process.

For example, Phase I evaluation criteria emphasized fundamental issues, such as site location and
availability of financing. These represent critical “go/no-go” decision points that can be used to
screen out offerors who have little chance of winning the project. Both the offerors’ and the
government’s resources, therefore, are conserved for the more competitive Phase II, where the
criteria focus is on the design and utility of the proposed facility.

Although we believe that the procurement process used to obtain the leased space can be effective
and efficient, we are concerned that certain critical milestones are late, increasing the project’s
cost and schedule risk. Principal among these is the current unavailability of a detailed space plan
and a build-out specification known as a “Program of Requirements” (POR).




                                                 9
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998




In their responses to our draft report, the Department, PTO, and GSA all agreed with our
recommendation that the PTO lease development project should continue. PTO emphasized its
need to acquire more efficient space and to lower its costs in that the lease rate projected for the
new or renovated facility is expected to be lower than that of the current collection of leases. The
Department stated that with all of PTO’s current leases expiring in the 2000-2002 time frame, this
is a unique opportunity to consolidate PTO’s operations. The Department believes that delaying
the procurement would cost the government millions of dollars in both non-competitive lease
extensions and in potential protests from the participating bidders.




                                                10
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

II.    PTO Needs to Finalize Its Space Planning

While PTO has justified the overall need for new facilities and prepared a draft Space Allocation
Plan (SAP), it has not finalized its space requirements. Currently, PTO leases approximately
1,899,775 rentable square feet, of which approximately 1,704,190 is occupiable. The space
requirements specified in the SFO are for up to 2,386,940 rentable square feet and 1,989,116
occupiable square feet. Therefore, PTO is seeking an increase of up to 487,165 rentable square
feet (a 25.6 percent increase) and an increase of 284,926 occupiable square feet (a 16.7 percent
increase).

Although we believe that PTO can justify its requirement for all 1,989,116 occupiable square feet
of space, we are concerned that it has not made space planning more of a priority and that it may
not have a final Space Allocation Plan (SAP) in time to complete its interior design specifications,
or POR. In addition, PTO has not fully considered its future reengineered and automated systems
environment. Initiatives that should reduce PTO’s near and long-term space needs—primarily
automation initiatives—have not been fully factored into its space requirements projections,
although they could have a substantial impact on PTO’s needs.

A. PTO Has Not Finalized Its Space Allocation Plan

The SFO provides for the lease development contract to be awarded based on the developer’s
design of the building shell alone. The government is required to issue the interior design, or
POR, upon lease award.21 PTO is currently finalizing its space use planning to determine its
requirements for the various groups and functions necessary to accomplish its mission. It now has
a draft Space Allocation Plan. However, we are concerned about PTO’s delay in finalizing its
precise space needs. The SAP is a critical element in PTO’s effort to develop the POR, without
which the lease award must be delayed. As of this writing, seven months before lease award,
PTO has not finalized its ground-up assessment of its requirements.

There are two main reasons PTO has not completed its space planning. First, the build-out plan
has not been a priority because PTO believes it can turn back any unneeded space to GSA.
Second, PTO has still not reached an agreement on individual employee space needs with the
largest of its three unions.




       21
            SFO No. 96.004, Executive Summary, para. 4, p. ii of ii.

                                                       11
U.S. Department of Commerce                                                          Final Report IPE-9724
Office of Inspector General                                                                    March 1998

        1. PTO believes it can turn back unneeded space to GSA

When awarded, the lease will be a contract between GSA and a developer/lessor. PTO will have
the right to occupy space through a subsidiary agreement with GSA. PTO representatives believe
that they will be able to turn back any unneeded space to GSA in accordance with section 101-
17.302 of the Federal Property Management Regulations (FPMR).22 This FPMR section,
“Procedures for Agency-Initiated Relinquishment of Space,” provides that an agency occupying
standard, commercial, GSA-controlled office space may, at no cost to the agency, turn all or a
portion of that space back to the GSA with 120 days’ written notice unless the agency is
responsible for building operation and or maintenance, in which case six months’ notice is
required.

PTO cites this FPMR regulation as providing a “safety net,” which will allow the bureau to lease
enough space to fulfill its mission, while at the same time ensuring that it will not be trapped in a
too-large facility with vacant space. GSA is also unconcerned because any space turned back by
PTO would be marketable because it would be among the newest office space in the Washington,
D.C., metropolitan area, located on an attractive campus setting, and close to the metrorail
system. Both GSA and PTO believe there is relatively low risk of the government retaining
vacant space in the new facility.

It should be noted that the FPMR was issued in 1991 as only a temporary regulation. It was
published in the Federal Register on August 26, 1991, and was effective for one year. Even
though GSA has not issued a replacement regulation, both GSA and PTO believe section
101-17.302 continues to be a possible mechanism for turning back unneeded space.

However, it should be noted that the FPMR is not fully applicable to this type of lease
development. The FPMR is best applied to moderately-sized, standard office space, without
special uses. Even a partially vacant PTO facility could be difficult for GSA to re-lease for three
reasons. First, the sheer size of the new facility would put GSA at considerable risk if PTO
suddenly vacated a large block of space. GSA may be hard pressed to find tenants for such a
large facility, especially with government downsizing expected to continue. Second, parts of the
new facility will be state-of-the-art offices conceptualized to support a high degree of automated
information technology and other special purposes. Lastly, some facilities, such as the patent
public search room, could be less marketable once they are customized specifically for PTO.

In other words, the safety net of returning space to GSA is complicated by the sheer size of the
space itself, the risk that a new tenant would be unable or unwilling to pay for high-technology


        22
         41 C.F.R. § 101-17, Assignment and Utilization of Space, Federal Property Management Regulations
(FPMR) Temp. Reg. D-76, 56 Fed. Reg. 42,166 (1991). Hereinafter referred to as FPMR.

                                                    12
U.S. Department of Commerce                                                              Final Report IPE-9724
Office of Inspector General                                                                        March 1998

upgrades to the building, and the unmarketable nature of customized features of the PTO
facilities.

Because of uncertainty about the applicability of the FPMR section, PTO and GSA should arrive
at a negotiated agreement detailing the rights and responsibilities of the agencies in the event that
any of the new PTO leased space needs to be turned back to GSA. See page 36 for a further
discussion of space issues related to the agreement with GSA.

       2. Not all PTO union agreements are in place

PTO currently has approximately 6,458 employees, including contractors, of which 4,244 are
represented by one of three unions. The Patent Organization Professional Association (POPA)
represents 2,251 patent examiners, the National Treasury Employees Union (NTEU) Chapter 243
represents 1,762 support personnel, and that union’s Chapter 245 represents 231 trademark
examiners. The amount of office space allocated to each employee has been a principal working
condition issue in discussions between the unions and PTO. PTO has reached agreement with
NTEU Chapters 243 and 245 to use a uniform allocation of 120 square feet to all employees.
While this agreement represents a significant step forward, NTEU Chapters 243 and 245
represent less than half (1,993 of 4,244) of PTO’s union employees. PTO is still pursuing a space
agreement with POPA.

A major consideration is the so-called “Ross Award,” named after the arbitrator who arrived at a
work space-related decision in 1983. Pursuant to the Ross Award, “the goal of [PTO] shall be to
provide equivalent [patent] examiners offices to examiners of equal grade and signatory
authority,” including that “all examiners and classifiers, grades 13, 14, and 15, shall be provided
with private offices of approximately 150 square feet.”23 (Emphasis added.) POPA points to the
goal of 150 square feet for senior union members as a working condition standard. Using this
standard in PTO space planning, senior examiners would occupy individual offices, and junior
examiners would be “doubled up,” two examiners to an office. This plan would result in less
overall space taken by the workforce even though each individual office would be 30 square feet
larger. Support staff would occupy cubicles located in the “bullpen” open area space.

By contrast, PTO management has proposed a uniform 120-square-foot individual office for
virtually all employees, regardless of rank. This is known as the “universal grid” concept. A
standard 120 square feet of office space would be allocated to each occupant of an individual
office. This size standard would apply to PTO management personnel and patent and trademark
examiners alike, although some managers would have an attached 120-square-foot meeting room.



       23
            Case #83 FSIP (Federal Service Impasse Panel) 89, Jerome Ross, Arbitrator (1983).

                                                      13
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

Support personnel would continue to occupy open bullpen areas and cubicles. It is this universal
grid to which NTEU Chapters 243 and 245 agreed.

Absent an agreement on the amount and use of space with all three unions, PTO cannot finalize
its interior space requirements and develop the POR. Since the POR is a contractual condition
precedent, this may delay the lease award, resulting in higher costs to the government (see page
30).

We have determined that, by PTO’s internal schedule, the effort to finalize its internal space
requirements is more than a year behind schedule, although that earlier schedule was “padded” to
allow time for delays. Now, however, there are only seven months remaining to finalize the SAP
and develop the POR. While this appears to be a great deal of time, it may prove insufficient for a
project of this magnitude. If PTO misses the interior space requirements deadline, the
consequences will be costly because PTO’s space planning and the POR will not be completed by
the scheduled October 1998 lease award.

B. PTO Has Not Properly Considered Certain Variables in Its Space Planning

There are several other key variables that PTO has not adequately considered in defining its space
requirements for the new leased facility. These variables include (1) the beneficial effects of its
reengineering and automation initiatives on space needs, (2) “work-at-home” programs, currently
in process with the trademark unit, which could be expanded to patent examinations, and (3)
vacant space currently leased by PTO.

       1. PTO’s requirements ignore reengineering and automation initiatives that could reduce
       its space needs

PTO has not taken into account the effect of its own reengineering and automation initiatives that
could substantially reduce its space needs in two ways: (1) greater efficiencies could be gained
through increased productivity, thereby flattening staff growth projections; and (2) a reduction in
PTO’s paper files, which now occupy some 163,000 square feet. While PTO has acknowledged
that there will be improvements in quality of work and service to customers as a result of these
reengineering and automation efforts, it has not yet recognized the benefits of these efforts, which
could significantly reduce the amount of space required in the new facility.

       a. PTO anticipates future reductions in space needs through reengineering

PTO has completed the design of reengineered patent and trademark business processes, which
are expected to have a substantial, long-term effect on PTO’s space requirements. The patent
target business process was published by PTO in November 1995, and the most current trademark
target design concept of operations was completed in fiscal year 1996. These documents describe

                                                 14
U.S. Department of Commerce                                                                Final Report IPE-9724
Office of Inspector General                                                                          March 1998

conceptual, yet attainable, business processes that rely heavily on information technology to
achieve what PTO calls “dramatic improvements” in products and services.24

In an attempt to quantify the savings that may be achieved through its reengineering efforts in the
patent area, PTO commissioned a report by an information technology contractor. Although this
report was never published beyond a preliminary draft dated October 4, 1996, it remains the most
detailed study of efficiencies to be gained through PTO reengineering.25 While this report
suggests significant savings in costs and full-time employees from full reengineering
implementation, PTO questions these savings projections. Nonetheless, PTO does agree that its
reengineering initiatives will achieve significant savings in terms of cost, full-time employees, and
space. However, PTO has not quantified its projected savings and has not factored any such
savings into its plans for the new facility because the bureau does not believe that benefits will be
realized until after 2001. We believe, however, that this October 4, 1996, draft report, which we
refer to as the “draft performance analysis,” highlights some of the projected savings made
possible from reengineering initiatives and should be taken seriously.

In this draft performance analysis, the contractor estimated substantial PTO staff and dollar
savings from a fully deployed patent reengineering project, including savings of more than 2,400
full time employees by fiscal year 2006. While PTO does not agree with these projections, it did
agree that completion of this initiative will have a substantial and permanent effect on cost, space,
and number of full-time employees.

The draft performance analysis projects that approximately 5.4 percent of PTO’s patent staff may
be saved by fiscal year 2001, as a result of implementing the patent reengineering process.26 If
these staff savings were applied to PTO’s latest projection of patent staff for fiscal year 2001 of
5,549, approximately 300 patent examiners and support staff personnel would be saved as a result
of implementing the patent reengineering process. Assuming an average office size of 191 square
feet (including circulation and support space), 57,000 square feet of space would be saved. While
this is not by itself a significant amount of space saved, this example demonstrates the importance
of planning and incrementally measuring the effect of PTO’s reengineering and automation efforts
on its space requirements. Any small changes in the quantity of space can eventually cause a


        24
           United States Patent and Trademark Office, PTO Strategic Information Technology Plan for Fiscal
Years 1997 - 2002, at EO-22 (May 1997).
        25
           United States Patent and Trademark Office, Patent Transition Phase Economic and Performance
Analysis (DRAFT, October 4, 1996).
        26
           The draft performance analysis calls for a potential staff reduction of 2,425 employees by fiscal year
2006. We use the more conservative figures for fiscal year 2001 in this analysis because PTO is scheduled to begin
occupying the new leased facility in that year.

                                                       15
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

significant cumulative effect on its requirements for the build-out of the facility. For instance, a
savings of 57,000 square feet represents a lease cost savings of $1,368,000 (57,000 square feet
multiplied by $24 per square foot) each year, or a total of $27,360,000 over the 20-year life of the
lease. This estimated cost savings of $1,368,000 is one example of the potential savings that may
be achieved from substantial implementation of the patent reengineering and automation efforts.

The types of savings that may be achieved are exemplified by the Patent Application Management
(PAM) system. The PAM system concept of operations was created to provide PTO with the
ability to process patent applications electronically, rather than manually. PAM includes a number
of subsidiary projects intended to minimize the frequency that examiners and clerical personnel
will have to physically handle a given application. By maintaining the application in electronic
form, the application file can be stored, examined, and transferred from one process station to the
next electronically. In this fashion, time in the examination phase is minimized and transit time is
virtually eliminated. PTO believes that PAM will improve the efficiency of the patent review
process. PTO’s Strategic Information Technology Plan, dated May 1997, indicates that PTO
plans to begin developing PAM in fiscal year 2000 and begin incrementally deploying it in fiscal
year 2002, one year after the new leased facility will begin occupancy. PTO has not yet planned
for any decreases in the need for space in the new facility as a result of the future deployment of
PAM.

In addition, PTO expects its Automated Patent System (APS) image and text search systems and
data bases to support paperless searching by fiscal year 2001. Nevertheless, PTO still plans to
retain in excess of 45,000 square feet of paper files. Although the examiner shoe cases will not
move to the new facility, the patent classified collection will be removed from the public search
room and retained in paper files.

PTO is planning to retain 45,000 square feet of file space for hardcopy patent application files
because the PAM system and electronic filing will not be available until after the new leased
facility will begin occupancy. Once the APS, electronic filing, and PAM systems are eventually
deployed, we believe that even this remaining 45,000 of space can be saved. Although PAM will
not be ready for the initial phases of construction, PTO should plan for the eventual elimination of
this space requirement.

We believe that even if these systems are only partially successful in reducing the time and
paperwork in the patent review process, this reduced effort should be reflected in fewer
employees, fewer paper (hard copy) files, and therefore less space.




                                                16
U.S. Department of Commerce                                                      Final Report IPE-9724
Office of Inspector General                                                                March 1998

       b. PTO must overcome constraints on the full deployment of its reengineering initiatives

PTO representatives claim that many of these reengineering initiatives will not be fully deployed
when the new facility is occupied. Although the benefit of these systems are understood and
reductions in space requirements estimable, PTO contends that the benefits of these systems will
be unavailable until after the space consolidation is complete. PTO also resists incorporating most
of such projected space savings into its construction plans because it claims it is not known when
or even if the reengineering and automation initiatives will actually be implemented due to budget
fluctuations.

For example, PAM is not scheduled for deployment until fiscal year 2002, and the pilot project is
on hold awaiting the restoration of $2 million in funding cut by the Congress under the Omnibus
Budget Reconciliation Act of 1990. Moreover, some patent attorneys representing inventors and
PTO’s union employees are opposed to PAM’s implementation: the patent bar supposedly
because its on-line patent application filing process may allow individual inventors to avoid legal
representation in initial filings, and the unionized patent examiners because of the possibility of
more rigorous productivity standards. Finally, PAM faces major technical challenges. Since
PAM is envisioned as an on-line patent application filing system, security is one of several
concerns. Patent applications require secrecy in order to protect the underlying technical
innovation.

Using PAM as an example, PTO management argues that the benefit of the various reengineering
projects should not be factored into its plans for the new leased facility because the space savings
will not be realized until 2003. We disagree. We believe that the technical challenges are not
insurmountable, and that PTO should program employee and space savings into its space plan
before the final dimensions and interior design of the new leased space facility are finalized. PTO
is devoting significant resources to its automation efforts. For instance, in fiscal year 1996 alone,
PTO obligated $71 million on information technology capital acquisitions. In fiscal year 1997, it
awarded a $511 million task order contract spanning five years for reengineering efforts, and
issued an interagency agreement and subcontract for a $10 million, four-year system security
design effort. Moreover, PTO is planning to spend more than $1 billion for information
technology, from systems design, acquisition, operations, and maintenance over the next five
years. Given this level of spending by PTO for reengineering and automation, we believe that the
$2 million required to launch the PAM pilot should be available within the bureau’s existing
budget. Furthermore, PTO should work with the patent bar, its unions, and the public to
overcome resistance to electronic filing of patent applications. The data security issues and other
concerns will need to be resolved in a variety of ways, such as (1) implementing state-of-the-art
security technology, (2) educating the public, and (3) successful partnering and negotiation with
its employee unions.



                                                 17
U.S. Department of Commerce                                                                 Final Report IPE-9724
Office of Inspector General                                                                           March 1998

As for the elimination of paper files, PTO cites resistance to automating the examiners’ shoes and
public search files from PTO’s unions, the public, and patent attorneys as the reason that the
paper files may not be completely eliminated. Although PTO has seen growing interest by many
patent attorneys in electronic patent searching, many other patent attorneys and other members of
the public would like to retain the paper files.27 This is due to a preference for paper file searching
over using the APS. Also, foreign patents are not expected to be on APS for another two years.
However, expecting considerable progress toward automation by 2001, PTO is planning to
convert most, but not all, of its paper search files to an electronic format in time for occupancy of
the new lease facility.

         2. Trademark work-at-home pilot project could reduce PTO’s space requirements

PTO has been researching the possibility of a “work-at-home” program for its trademark
examiners. A patent examination work-at-home program is not currently being considered
because of security concerns. While trademark applications are a matter of public record at the
point of filing, patent applications are proprietary and must remain secret. PTO officials state that
this could restrict the patent examiners from bringing work home.

PTO’s trademark business is piloting a work-at-home program, with a stated fiscal year 1999 goal
of having 80 attorneys working at home up to 60 percent of their time.28 Initial results of the pilot
project, which covers electronic information storage and on-line retrieval and search, suggest that
the technical problems are manageable. There is great potential to reduce PTO’s space
requirements if this work-at-home pilot is approved for full implementation, and if other PTO
business areas are also considered for this program.

While the 231 trademark examiners account for only 3.6 percent of PTO employees, the space
needs for trademark examiners could be substantially reduced before PTO takes possession of the
planned facility. PTO officials have stated that people who work at home 60 percent of their time
will share offices when actually at the PTO facility. This means a savings of at least 40 offices for
those 80 people expected to participate in the work-at-home program by fiscal year 1999. PTO
could save even more space by fully implementing this work-at-home program, and potentially
moving to a “hoteling” concept of space usage, which is gaining in popularity in corporate




         27
           Official Gazette of the United States Patent and Trademark Office notice, dated January 7, 1997,
announcing a public meeting to discuss options for “relying on less paper.”
         28
              United States Patent and Trademark Office, Fiscal Year 1999 Secretarial Corporate Plan at 32 (July
1997).

                                                         18
U.S. Department of Commerce                                                                Final Report IPE-9724
Office of Inspector General                                                                          March 1998

America.29 If this concept is also to be used on the patent side of its operations, PTO will have to
address security issues by implementing state-of-the-art data security technology.

However, even if the patent examiners cannot participate in the work-at-home program, the
reduction in space from the trademark staff’s participation is still advantageous. For example,
assuming the work-at-home program is fully implemented in the trademark area by fiscal year
2001 and there is no growth from the current level of approximately 240 trademark attorneys,
120 offices would be saved from the attorneys’ sharing offices while at PTO. Thus, assuming an
average office size of 191 square feet, the work-at-home program in the trademark area would
save approximately 22,920 square feet of space by fiscal year 2001. This translates to $550,080
lease cost savings each year, or $11,001,600 over the 20-year life of the lease. Again, our
estimates of cost savings are subject to changes in the underlying assumptions, but they
demonstrate why PTO should factor in savings from its work-at-home initiatives in its space
planning requirements.

        3. PTO paid rent on vacant space

For approximately eight months, from March to October 1997, PTO had a large inventory of
vacant space that was inappropriately set aside for a reorganization of several patent groups by
industry sectors, in advance of congressional authorization. The renting of this space was
coordinated with the Department prior to the contemplated industry sector reorganization.
Before it was implemented, the Congress advised PTO to suspend the reorganization because it
had not been authorized. As a result, PTO carried more than 73,000 occupiable square feet of
vacant space for approximately eight months. The total cost of proceeding without approval was
almost $1.5 million because PTO paid an average of $30 per square foot to rent this vacant space.
This space is currently occupied by the patent examiners, and is no longer vacant.




        29
             In combination with concepts such as “remote employment” or the “virtual office,” hoteling includes
any working arrangement in which employees perform some significant portion of their work at a location other
than their employer’s central office, usually at their own home. With hoteling, companies save space by not
assigning permanent space to remote employees in the central office, but rather having them share offices and
conference space as necessary when on-site. Such space is assigned to them by reservation, much like a hotel.
Corporations that have gone to these combinations have reported increased productivity, reduced costs, and
increased job satisfaction.

                                                       19
U.S. Department of Commerce                                                  Final Report IPE-9724
Office of Inspector General                                                            March 1998

PTO Needs to Further Justify the Consolidated Space Project Size — Resolved

Our draft inspection report was issued on December 23, 1997 and included two significant
findings not discussed above. First, we concluded that PTO had not prepared a detailed space
plan, jeopardizing the lease development project. Absent a PTO space plan to evaluate, we used
the now-expired FPMR to develop an estimate of the space required by PTO. Based on our
FPMR model, we recommended in the draft report that PTO prepare a detailed space plan and
consider forgoing at least one lot of 100,000 square feet of space.

Second, we determined that PTO should incorporate reengineering space savings into its space
plan. This primarily included the reduction of PTO’s paper files, particularly the hard copy
examiner search files located in the “shoe” cases and pre- and post-exam files. According to
PTO’s estimates, these paper files totaled 163,000 square feet of space.

In response to our recommendation that PTO prepare a detailed space plan of its space needs,
PTO submitted a draft “Space Allocation Plan” (SAP) dated October 1, 1997. Until this
submission, we were unaware of this space plan. We understand this document approximates
PTO’s final expected facility, but is still in draft form.

Based upon our analysis of the draft SAP, we have dropped the recommendation previously
included in our draft report that PTO consider forgoing at least 100,000 square feet of space. We
have reviewed the SAP and looked at PTO requirements for office space, which includes support
space (conference rooms, coffee rooms/pantries, file space and storage) and circulation. This
space also included computer systems space which we did not evaluate because there is no
comparable FPMR model. The draft SAP employs PTO’s grid concept, whereby all union patent
and trademark examiners will receive 120 square foot offices, as will virtually all of PTO’s
managers, although some managers will also receive 120 square foot meeting rooms. Lower
grade personnel, both union clerical and non-union personnel, will occupy 60 to 80 square foot
cubicles. Based upon the draft SAP, PTO will still need the full 1,989,116 occupiable square feet
of space required by the SFO, despite PTO’s use of the grid concept.

We believe that PTO’s draft SAP is a reasonable estimate because it develops its space
requirements from the bottom-up, considering the individual requirements of each major group
within the bureau, and extending these requirements by the number and function of personnel
employed within that group. By comparison, the FPMR model we employed simply extended
average space allocations by the number of employees projected to be employed in 2001, without
regard to the actual space that function or discipline may require.




                                               20
U.S. Department of Commerce                                                         Final Report IPE-9724
Office of Inspector General                                                                   March 1998

Other Space Consolidation Concerns

We also recommended that PTO reach agreement with its unions on space-related issues in
advance of the lease development award, to which the Department agrees. Currently, PTO has
reached an agreement with NTEU’s chapters 243 and 245, representing 1,993 out of 4,211 union
employees. As of this writing, POPA is pursuing an administrative law appeal to the Federal
Labor Relations Authority, charging that the issuance of the SFO, without prior negotiation of
facility design with POPA, constitutes an unfair labor practice. We encourage PTO to continue
its efforts toward concluding its union discussions as soon as possible.

PTO also addressed our recommendation that it assess the impact of its reengineering initiatives
on the size of the new leased facility and factor those estimates into the bureau’s space
requirements plans. PTO has responded that it has, in effect, taken the space savings associated
with the universal grid concept and some portions of reengineering, such as the elimination of
paper search files for patent examination. In addition, PTO argues that one of the most important
reengineering initiatives, electronic patent filing, or PAM, will only begin implementation by 2001,
and will not be fully available until 2003, after the new facility will have been fully constructed.
Finally, PTO responds that the steady increase in patent and trademark filings since the beginning
of the space consolidation effort will see the number of patent and trademark applications double
within the 20-year lease term. PTO believes it will only be able to remain within the 1,989,116
occupiable square feet approved by the prospectus by implementing the reengineering initiatives,
without which the bureau would run out of space because of the steady growth in patents.

The Department responded that PTO has appropriately incorporated its reengineering initiatives
into its overall space requirements, and that many reengineering initiatives will not yield space
savings until after the facility is to be constructed. If the space savings are realized at a later date,
the Department maintains that this space can be returned to GSA. In addition, the Department
cautioned against building a facility which is too small to meet PTO’s needs.

Finally, with regard to the vacant office space, PTO responded that this space was originally
planned to be rented as expansion space. Only after the leases were in process did PTO attempt
to reorganize several of its patent groups by industry segment, a move which was not authorized
by the Congress. Due to this controversy, the space sat vacant for approximately eight months.
The space was occupied by patent examiners on October 31, 1997, and is no longer vacant.

In the draft report, we were concerned that PTO did not reconcile its vacant space on hand to its
overall requirements and may not have needed all of the space included in the SFO. However, the
draft SAP developed the bureau’s requirements using a bottom-up approach, obviating our
concern about the vacant space as it relates to space planning. We do remain concerned,
however, that PTO proceeded with its reorganization without congressional authorization,
resulting in the waste of funds for rent payments.

                                                   21
U.S. Department of Commerce                                                      Final Report IPE-9724
Office of Inspector General                                                                March 1998

III.   PTO Build-Out Plan Requires Risk Management

The PTO/GSA procurement strategy and the SFO provide for an allowance of $88 million for
build-out of the shell. To accomplish the build-out, PTO must prepare a detailed program of
requirements describing its planned space utilization. The POR is due to the successful offeror
upon lease award and delay in its issuance could in turn delay the entire build-out, resulting in
additional costs to the government. In addition, the nature of the build-out could also cause the
government to incur additional costs because there was no ceiling on costs in the contract.

A. PTO’s Build-Out Approach Is a Result of Risk Analysis

PTO arrived at the build-out allowance approach after considering three basic approaches and,
through an informal process, comparing the inherent risks of each. The three approaches are for
the government to (1) completely specify the entire build-out with detailed drawings upon
issuance of the SFO, (2) specify detailed price lists for all build-out items before lease award, or
(3) provide for an unspecified build-out with an allowance for its completion. There are benefits
and risks associated with each approach:

       1. Specifying the build-out with detailed drawings

Specifying the build-out with detailed drawings is a traditional construction method, especially
when the entire project is designed by the government and built under its direction. Since the
detailed drawings are available in advance of construction, both the base building and the build-
out can be competed among developers. In this fashion, the lowest competent bid for the entire
project can be accepted by the government.

Preparing detailed specifications in advance for buildings built for lease by the federal government
is also required by the procurement laws.30 Although PTO and GSA have meticulously specified
the requirements for the base building, the build-out specifications have been deliberately omitted.

PTO did not specify the build-out requirements because it runs contrary to its entire lease
development strategy. First, in competing the lease development, PTO is seeking the latest
construction techniques and design concepts from the competing developers, rather than
specifying the facility itself. PTO wants the developers to consider new concepts in space design
and utilization. For this reason, PTO determined that detailed drawings for the build-out would
not be made available before the offerors’ Phase II submission of proposals. Second, PTO is also
very concerned with the likelihood that the bureau’s needs will change between when the
drawings are completed and the construction contract competed, resulting in numerous expensive


       30
            40 U.S.C. § 618(a).

                                                 22
U.S. Department of Commerce                                                         Final Report IPE-9724
Office of Inspector General                                                                   March 1998

change orders.31 GSA has agreed to this construction concept and is managing the effort on
behalf of PTO.

The developers’ innovation is not necessarily disturbed by government furnished specifications,
however, and such specifications may serve as an expected minimum threshold. In addition, we
believe that change orders are likely in any event given the SFO build-out strategy.

        2. Specifying detailed price lists for all build-out items

The second method calls for the developer to bid to, or negotiate with, the government a priced
list of build-out items. This process is in accordance with the FPMR.32 For instance, an above-
standard door lock bought in a range of anticipated quantities would be estimated at a specific
price for future installation. Prices would be developed for all items of anticipated upgrades, such
as price per linear foot of molding to protect walls, upgraded lighting, and carpeting. In effect,
this method develops a “menu” of priced items against which additions and deductions are
calculated when the inevitable changes to the build-out occur.

PTO decided against using this method because of the cost risk associated with developing the
specific price lists. In particular, PTO was concerned that by pricing out the standard and above-
standard items years in advance of construction, the developers would apply price escalators to
protect themselves from fluctuations in the cost of building materials and labor. PTO made an
informal judgment that pricing out individual build-out phases only a few months in advance of
the construction time period would save the government the added escalation. In addition, PTO
still would not necessarily have any detailed build-out drawings in advance of lease award to
facilitate estimating the quantity of each item required.

        3. Providing for a build-out allowance for unspecified work effort

This build-out approach calls for the lease development of a building with an allowance for the
physical construction of the interior. The lease payments compensate the developer for the design
and construction of the facility, financed over a 20-year period. The lease rate also includes an
$88 million allowance for the build-out, which the government is financing, in part, through the
lease payments. This type of build-out is common in the commercial real estate industry, where
office interiors are relatively standard and costs determinable.




        31
             SFO No. 96.004, Section A.7.1 and A.7.2., p 4 of 30.
        32
            41 C.F.R. § 101-17, Appendix A, Federal Property Management Regulations (FPMR)) Temp. Reg. D-
76, 56 Fed. Reg. 42,166 at 42,178 (1991).

                                                        23
U.S. Department of Commerce                                                                Final Report IPE-9724
Office of Inspector General                                                                          March 1998

PTO favors this method because the bureau would not have to define the entire build-out until
lease award in October 1998, and it believes that design flexibility is an advantage in achieving
work space to enhance PTO’s patent and trademark production processes. Since the remaining
offeror’s proposals have been received and lease award is scheduled for October 1998, PTO
believes it has seven months to refine its interior build plans based on its knowledge of the rough
outline of the offerors’ facility designs. Because the lease is a negotiated procurement, the parties
will be allowed to hold discussions before award. However, complete pricing details for the
build-out would still not be available until after one of the developers is awarded the entire lease
development project, and no negotiations over the build-out are contemplated.

PTO also favors this build-out process because it allows the bureau greater flexibility in making
changes to the build-out once the lease development is awarded and construction of the building
shell begins.

The lessor/developer is required to prepare the build-out in eight to 10 stages,33 each of which
becomes a separate work task. The developer is required, at a minimum, to provide “all necessary
tenant improvements and fit-out” for the $88 million build-out allowance.34 Beyond this, PTO
plans a number of upgrades above the FPMR standard. PTO is planning to finance these above-
standard upgrades for improved lighting and electrical systems, office doors, windows, plastic and
wood finishes and moldings, special finishes, and other enhancements with its own funds. PTO is
currently budgeting $29 million for these upgrades, including escalation. PTO is also budgeting
$25 million for new furniture in its fiscal year 1999 budget submission, two years in advance of
building occupancy. These figures could be exceeded because there is no ceiling on the build-out
costs.

Essentially, the build-out process is a cost-type sole-source task order construction contract
nested within the lease development contract. This is so because the build-out effort will be
managed separately from the building shell construction, and the final cost of the build-out is not
limited by the lease payment. As each stage of the construction is complete (2 million occupiable
square feet in no more than eight buildings35), the developer will submit a proposal on the build-
out of that stage.36 Rather than obligating new funds with the issuance of work against a task
order, as with a task order contract, the SFO calls for the earmarking of a portion of the $88


        33
             SFO No. 96.004, Section D.2.2., p. 2 of 22.
        34
          SFO No. 96.004, Executive Summary, para. 4, p. ii of ii. PTO describes the “necessary site
improvements” to be standard, commercial office space readily available in the commercial real estate market.
        35
             SFO No. 96.004, Section G.1.2., p. 2 of 43.
        36
             SFO No. 96.004, Section D.6.1.a, p. 8 of 22.

                                                           24
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

million build-out allocation against a stage of the build-out. It is not clear how the $29 million
PTO upgrade budget will be added to the mix, whether it will be commingled with the $88 million
build-out allowance or held and authorized separately.

Our concerns with the built-out method chosen by PTO are discussed below.

B. PTO’s Build-Out Allowance Method Contains Considerable Risk

PTO’s build-out process presents two types of risk: (1) the cost risks associated with the build-
out, and (2) the schedule risk, which also can result in additional costs to the government.

       1. Cost risk

       a. The PTO build-out has no contractual ceiling

The single greatest cost risk associated with the build-out is that the above-standard build-out, to
be financed by PTO, is not limited by a ceiling in the SFO. PTO may make numerous changes to
the build-out after the lease is awarded and construction begins, thus driving up costs. We are
further concerned that PTO has budgeted $29 million for the build-out and another $25 million in
fiscal year 1999 alone for furniture, even though the new furniture will not be required until 2001,
and then only in stages to match the occupancy of the new facility. GSA lacks an incentive to
control PTO’s build-out expenditures because under the terms of the verbal agreements between
the agencies, GSA will not be responsible for the above-standard costs. Moreover, as of this
writing, GSA is discussing with PTO its fee for managing the build-out process, and a straight
percentage-of-cost fee ranging from 3 to 9 percent has been discussed. This means that GSA will
have little incentive to minimize PTO’s costs since the higher the total build-out cost, the higher
GSA’s fees (see page 35).

Although the overall lease development has been approved by the Congress, the above-standard
build-out has not. No alterations to a lease in excess of $750,000 may be made “unless such
alteration has been approved by resolutions adopted [by the Congress].”37 The Senate and House
of Representatives resolutions approving PTO’s lease development did not specifically authorize
cost growth for above FPMR-standard build-out. It is not clear that Congress has approved of
the $29 million build-out cost growth.

The standard build-out is financed through the SFO and has a specified cap of $88 million, which
also defines the extent of GSA’s liability in the build-out. In the event that GSA must take back
unneeded space from PTO and find a new lessee, GSA must still pay rent on that space to the


       37
            40 U.S.C. § 606(a).

                                                 25
U.S. Department of Commerce                                                                 Final Report IPE-9724
Office of Inspector General                                                                           March 1998

developer. However, since the above-standard build-out was financed directly by PTO, GSA is
only liable to the developer/lessor for the value of the standard build-out costs, which are included
in the lease payments. This arrangement makes the office space more marketable in terms of cost
and therefore more attractive for a new tenant. Since GSA will bear the risk of taking back
unneeded space from PTO, this arrangement is acceptable to GSA. However, since PTO is
responsible for the above-standard build-out as a direct cost, this arrangement also puts the risk of
over-building the above-standard build-out directly on PTO. PTO and GSA do not regard the
congressional authorization as a cap or ceiling on above-standard items. As long as PTO has
“cash and clout” it will be able to get any above-standard changes it wishes. Should PTO’s PBO
legislation be enacted, PTO will have both the cash, through full use of its fees, and the clout,
once exempted from the federal procurement and real property management statutes, to chart its
own course. Otherwise, PTO would be limited by the funding allocated and approved by the
Office of Management and Budget.

PTO should prepare a definitive POR that specifies its build-out and includes a cost estimate.
This cost estimate should then be incorporated into the SFO as a contractually binding ceiling for
the build-out. The definitive POR should be developed immediately so that the build-out
requirements are identified as early as possible. Doing so will enhance the quality and utility of
the developer’s offers.

        b. Risk of contractor/developer buy-in

The lack of a detailed design may increase the build-out, and overall costs, because developers
may be able to “buy in” on the base building shell and build-out portion of the project.38 The $88
million build-out allowance is financed through the lease. Any amount over that must be financed
directly by PTO. Given the lack of a contract ceiling, the successful offeror may present an
attractive build-out concept, but after award would have an opportunity to increase the scope,
cost, and fees of the build-out because of his sole-source position.

PTO and GSA claim that the mere fact that the successful offeror is a sole-source for the build-
out phase does not necessarily mean that costs will rise. They point to language in the SFO that
would tend to closely manage the build-out, to the point of specific approval of subcontractors.
In addition, they claim that the government would be subjected to at least the same degree of risk
with established build-out specifications due to the probability of changes in the build-out. PTO
and GSA say the government is not disadvantaged because the specifications would likely change
anyway. Nonetheless, because of a lack of detailed build-out requirements in the SFO, the


        38
             48 C.F.R. § 3.501-1. “Buying-in” means submitting an offer below anticipated costs, expecting to
(a) increase the contract amount after award (e.g., through unnecessary or excessively priced change orders) or
(b) receive follow-on contracts at artificially high prices to recover losses incurred on the buy-in contract.

                                                        26
U.S. Department of Commerce                                                      Final Report IPE-9724
Office of Inspector General                                                                March 1998

government will not be able to get at least a competitively bid baseline on the initial build-out
design, before any changes are made.

With a normal build-out allowance containing a contract ceiling, there is no incentive for the
developer to buy in on the build-out. This is so because the government lessee will not accept the
facility until it meets the minimum commercial standard for office space, that standard is
understood by the developer and the government, and the entire build-out must be accomplished
within the amount financed through the lease rate. In the case of the PTO facility, however, the
final build-out specifications, or POR, are not known. A developer may perceive an opportunity
to make additional profits through a change order process at a later date.

The SFO requires the developer to submit a space plan, design intent drawings (DIDs),
construction drawings (CDs), and a cost estimate with each proposed stage of build-out.39 These
submissions are appropriate measures to assist the government in negotiating what is, in effect, a
series of sole-source construction task orders.40 However, since these task orders are essentially
changes to the base building lease development effort, PTO should require the developer to
maintain detailed cost records of its ongoing build-out effort so that PTO can monitor the
developer’s cost performance and make necessary adjustments to the build-out project.41

Well before negotiations with the offerors begin, PTO should (1) place an absolute contractual
ceiling on the value of the build-out and (2) incorporate language in the SFO requiring the
developer to maintain individual cost records for each phase, block, and stage of the build-out.
By tracking the contractor’s cost data to the lowest level of change activity, PTO will be better
able to control build-out costs and monitor the developer’s performance.




       39
            SFO No. 96.004, Section D.6.8., p. 12 of 22.
       40
            FAR 15.8.
       41
            FAR 15.804-2.

                                                       27
U.S. Department of Commerce                                                               Final Report IPE-9724
Office of Inspector General                                                                         March 1998

       c. Cost risk associated with contract changes directed by the contracting officer’s
       representative

The SFO provides for work effort and changes to the build-out to be authorized by either the
GSA contracting officer (CO) or the contracting officer’s representative (COR).42 Further, the
SFO provides for alterations to be made to stages of the facility after government acceptance.43 It
is customary for a COR to assist the CO in technical matters and inspection and acceptance
decisions. However, we believe the government will be exposed to additional change order cost
risk if a PTO representative is allowed to authorize contract changes describing the construction
and build-out. The SFO is appropriately silent as to the identity of the COR, who will be
appointed after award and identified in the contract. The COR should not be a PTO
representative because the developer would have multiple points of contact with government
authorizing officials split between two agencies. In addition, a PTO COR may lack the necessary
independence to resist unreasonable change requests.

Federal government contracts usually specify that only the CO has the authority to direct and
change the contractor’s work efforts. The FAR stipulates that “change orders shall be issued by
the CO except when authority is delegated to an administrative contracting officer.44 The COR’s
authority is typically limited to inspection and acceptance of completed work and interpretation of
technical specifications. In fact, contract disputes may arise if activities of the COR, or
contracting officer’s technical representative (COTR) change or add restrictive requirements to
the contract, resulting in a constructive change order.45

Under the current arrangements, once the construction, including build-out, is complete for any
portion of the new facility, GSA’s responsibility for that task is complete. The financial
responsibility for authorizing and paying for post-acceptance alterations rests with PTO.46 We are
concerned that the flexibility to initiate changes will promote waste and inefficiency on the part of
PTO because it may use this ability to continually change its interior under the lease as a costly
replacement for up-front space use planning. PTO should develop its space use plans as soon as
possible, rather than later in the lease development process.



       42
            SFO No. 96.004, Section D.8.7.f, p. 20 of 22.
       43
            SFO No. 96.004, Section D.8.7., p. 19 of 22.
       44
            48 C.F.R. § 43.202.
       45
            Switlik Parachute Co. Inc., 74-2 BCA Nos. 17920, 17923, ¶ 10,970 at 52,209.
       46
            SFO No. 96.004, Section D.8.7.g, p. 20 of 22.

                                                       28
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

       d. Risk associated with incomplete specifications

There are two risks associated with PTO’s lack of complete specifications: (1) the developers do
not have all of the government’s requirements at the time of proposal submission, increasing their
risk and, potentially, the final cost to the government, and (2) change orders become more likely
as corrections and/or additions to the original specifications become necessary.

               1) Increased performance risk to the developers may increase government costs

Without the benefit of the POR, the developers do not have all of the government’s requirements.
Lacking these final specifications, the developers must assume more risk in designing their
structures because they do not know PTO’s individual office space requirements and details on
special/joint use space. The developers are required to design a base building without knowing
how the PTO components will fit into that structure. Although PTO wants a structure and
interior design that will make its work flow more manageable and more efficient, it has not yet
conceptualized such an interior around which the developers can design the structure.

As the offerors must assume more of the development risk, such risk is ultimately reflected in
their offers through higher costs or through a cheaper building design. Since the rental rate is
fixed at the authorized $24 each square foot (plus escalation to lease award), the developers will
be pressed to design more cost-effective structures for construction, but not necessarily for
maintenance purposes. For example, in Amendment Five to the SFO, PTO removed the new
facility’s utility costs from the lease rate and made them the sole responsibility of the government.
PTO representatives explained that before the SFO amendment, the utility costs were the
developer/landlord’s responsibility. Since PTO’s employees, especially patent examiners, work
varied hours, the developers had a difficult time quantifying utility costs, adding risk to the
developers. To compensate for this added risk, the lease rate might have exceeded the authorized
rent of $24 per square foot. PTO’s removal of the utility costs from the lease was an admission
that the lease may be too risky for the developers and that PTO could better shoulder some of that
risk, although possibly at an increased cost to the government.

The added risk associated with the lack of a POR is that the developers will have an incentive to
cut design corners where they are able, for instance in the building’s architectural and aesthetic
design and in energy saving features. Some GSA representatives believe that this will result in
inefficient, boxy, and unsatisfying architectural structures.

               2) Incomplete specifications increase the likelihood of expensive design changes

PTO has only seven months from the receipt of offeror’s proposals until the POR is due with the
lease award in October 1998. Although PTO believes that a detailed POR can be prepared in this
time, we remain concerned that a sufficiently complete POR is unlikely due to ongoing union

                                                 29
U.S. Department of Commerce                                                       Final Report IPE-9724
Office of Inspector General                                                                 March 1998

discussions and the sheer scope of the project. If PTO is, in fact, behind schedule come October
1998, it would be under pressure to issue the POR regardless of its completeness. Otherwise,
PTO would subject itself to schedule delays for the overall project and additional delay costs.
Similarly, the contractors are also subject to additional risk, which may cause them to inflate their
initial offers on the lease development as well as the individual stages of the build-out.

In the event that the POR is incomplete or otherwise less than fully representative of the facility
that PTO desires, the bureau runs the risk of entering into a number of expensive change orders.
Under the oral agreement with GSA and the language of the SFO, PTO alone would bear the full
cost of such changes.

It is critical that PTO complete its union discussions, finalize its space needs, and take all
reasonable steps necessary to ensure that the POR is complete and ready for issuance to the
successful offeror on the date of lease award. In the event that PTO cannot meet these
requirements by lease award, it should consider delaying the lease award date because of the
likelihood that the cost of lease rate escalation will be more than offset by the reduced risk of
awarding the lease without complete build-out definition (see below).

       2. Schedule risk

As discussed above, the delay or incomplete status of the POR has cost risks. In this section, we
distinguish such cost risks from the potentially profound implications of a major delay in making
lease award and issuing the POR. There are two types of delays: (1) delay in making lease award
and (2) delays in the construction and build-out of the new facility.

       a. Delay in making lease award

PTO is running the risk that the lease award will be delayed because of the need for the build-out
POR. In the event that the lease award is delayed a relatively short time, such as a few weeks,
there may be little or no impact on the cost of the lease facility. This is because the project is a
negotiated procurement between the government and each of the four offerors. In the give and
take of the negotiation process, relatively minor delays are sometimes experienced. In the event
that hardships are suffered by the successful offeror, the government may escalate the lease rate
by a modest factor to reflect the delayed award date.

An example of such escalation is included in the SFO price evaluation methodology to be used in
evaluating each of the offers. The SFO specifies an escalation of 2.9 percent compounded
annually to be used in evaluating the offers.47 Such an escalation may be appropriate in


       47
            SFO No. 96.004, Section A.18.3.b., p. 14 of 30.

                                                       30
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

compensating the developer/lessor for minor government delays in making lease award, as
appropriate, at least to the extent that occupancy is delayed. In addition, PTO would be liable for
the consequential continuing lease cost of its current facilities. Of course, if PTO prepares its
POR for the scheduled lease award in October 1998, the government will not be subjected to
additional price escalation beyond the scheduled lease award or consequential holdover lease
costs, some $45 million each year.

In the event of a major delay, such as several months, PTO runs the risk that the entire project
will be scuttled. The developers are dependent upon outside financing for the construction of the
new facility. If lease award is delayed for a long period, the developers may lose their financial
backing and be forced to withdraw from the project. In such a situation, the government may be
liable for the withdrawing offeror’s proposal costs. Again, this emphasizes the need for PTO to
prepare its POR in a timely manner.

       b. Delays during the build-out

Another area of schedule risk lies with the build-out of the shell. The SFO describes a process of
establishing a build-out project schedule, submission of cost estimates by the developer,
government approval of plans, and monitoring of performance.48 Included is a well-conceived
method for measuring delays, determining to whom those delays are attributable, and providing
for liquidated damages and other remedial measures. Overall, these provisions offer protection to
the government against contractor delays.

However, in the event that the government proceeds with lease award without issuing the POR,
these safeguards may work to the contractor’s favor. The government POR issuance at lease
award is a condition precedent to the developer’s performance. If the POR is not issued at that
time, or is incomplete to the extent that is it deficient as a planning instrument, the developer may
be relieved of responsibility to perform until the POR is issued in a usable form and the delivery
schedule can be reestablished. In the interim, the developer may be able to charge the government
with price escalation, rent in advance of occupancy as part of liquidated damages, and the cost of
maintaining an idle workforce.

There is great pressure, therefore, for PTO to issue the POR upon lease award, as planned. If the
POR is issued on time but is incomplete, there is also the possibility of increased build-out costs
through the change-order process.




       48
            SFO No. 96.004, Sections D.2 through D.8, pp. 2 through 21 of 22.

                                                      31
U.S. Department of Commerce                                                      Final Report IPE-9724
Office of Inspector General                                                                March 1998




In response to our recommendation that PTO develop an estimate for the build-out of the facility
and establish this as a contractual ceiling, PTO agreed that there should be an absolute limit on the
government’s liability for the build-out, but disagreed that the SFO as drafted does not set such a
limit. Furthermore, PTO said it would be inappropriate to include any reference to the $29
million for above FPMR build-out items in the SFO because the government cannot guarantee
that such funds will be made available or expended. Nor did PTO think it was appropriate to
create a contractual obligation to commit these funds for build-out of the facility.

PTO does not agree that failure to establish a contractual ceiling would increase the project risk to
the government. First, PTO argues that GSA has, in fact, established a project estimate for the
build-out through the 1995 Heery International cost analysis. It was from this cost analysis that
the $88 million base build-out and $29 million above-standard estimates were derived. We
acknowledge these estimates and encourage PTO to incorporate these as contractual ceilings for
the project. The Heery International estimate is very detailed and itemizes the above-standard
build-out costs, the vast majority of which are for lighting, electrical, and mechanical
improvements intended to enhance PTO’s ability to carry out its mission (as opposed to cosmetic
improvements).

Second, PTO believes the annual budget process will place adequate management scrutiny and
oversight on the build-out process, ensuring that government resources are not wasted. We agree
that the annual budget process is useful in ensuring that the build-out effort is not contractually
authorized until funding is available. However, we believe that the contract should establish a
ceiling against which funding could be incrementally provided, and incorporate contractual clauses
limiting the government’s liability for the build-out to funded levels. The Department also
believes that the build-out method chosen by PTO and GSA is an established private-sector
practice that will yield good results, and that it would be unwise to change at this late stage in the
project.

Finally, PTO believes that the authorization of build-out work by stages includes budget controls
on PTO and cost management controls on the developer. Specifically, PTO maintains that the
cost for each build-out phase must be estimated in advance by the developer, at which time
funding is provided. This results in a natural budgetary constraint. In addition, cost controls are
to be placed on the developer to monitor progress against costs expended to keep the individual
build-out phases within their estimate. These controls are essentially those associated with
Indefinite Delivery Indefinite Quantity contracts, where individual orders are estimated in advance
and monitored. While it is proper to establish budgetary and cost controls at the individual task
order level, we believe that the total costs of the estimated build-out stages should be summed
together and added to the contract as a cost and budget ceiling. Such a measure would add
further protection against cost growth on the overall project.

                                                 32
U.S. Department of Commerce                                                                  Final Report IPE-9724
Office of Inspector General                                                                            March 1998

As for the appointment of a PTO COR, we acknowledge that the intent of the SFO provision49
D.8.7 is to allow changes to the facility to ensure its efficient use over the 20-year lease term.
However, provision D.8.7 does not preclude PTO from empowering a second COR which may
interfere with GSA’s COR. Our concern is not focused on preventing PTO from making useful
changes to its facility over the lease term. Rather, our concern is that PTO could appoint a
second COR during the construction and build-out phase who could, concurrently with a GSA
COR, give conflicting and competing work direction to the developer/lessor.

In subsequent discussions with PTO, the bureau acknowledged that it has no need for its own
COR until after the facility has been constructed and lease payments commence. Further, PTO
will propose language in its MOU with GSA to clarify this understanding. When PTO and GSA
do execute a written MOU, PTO will include a clause restricting the bureau from appointing its
COR until after the completion of construction. We agree with this course of action.

Our recommendation that developer costs be accumulated at the lowest individual task level
addresses the need to monitor the developer’s activities to ensure that costs from one stage of the
build-out do not migrate to successive stages. We reaffirm our concern that the build-out is
actually a series of sole-source construction task orders, and we do not believe that requiring
competition at the subcontractor level will adequately address the government’s cost risk. PTO
has responded that it will discuss additional cost control measures with GSA and the Department.
Based upon further discussions with PTO and the Department, we anticipate that they both will
take appropriate measures to monitor the developer’s build-out costs.




        49
           The “provision” is a solicitation clause, in this case, in the SFO. When the contract is awarded it
becomes a contract clause.

                                                        33
U.S. Department of Commerce                                                   Final Report IPE-9724
Office of Inspector General                                                             March 1998

IV.    PTO Has No Interagency Agreement with GSA for the Lease Project

Although the PTO lease development project represents one of the largest government office
projects ever, there is no written agreement between PTO and GSA. Instead, the agencies have
been managing this project through an oral agreement. Normally, on this type of project, two or
more federal agencies enter into a written interagency agreement describing the rights and
obligations of each agency and allocating the underlying project risk between them. We have
identified several key areas of concern arising from the lack of a written interagency agreement
for this lease development: (1) the undefined fee due to GSA, (2) PTO’s ability to turn back
unused office space to GSA, and (3) GSA’s unspecified future involvement with the development
project.

A. GSA’s Fee Structure Is Undefined

The GSA fee structure for the lease development project has not been agreed to by the two
agencies. There are three elements to the anticipated fee arrangement. First, GSA currently
receives a straight 3-percent fee based on some elements of service support contractor costs (not
including, e.g., source selection efforts) expended for the management of the project. Second,
GSA is pursuing a percentage fee based on costs expended for the above standard build-out
project management, although these terms have not yet been agreed upon. Third, GSA and PTO
are discussing a sliding scale percentage fee for long-term management of the facility, based upon
the value of the monthly lease payments. Although none of these fees have been defined by
formal agreement, we are particularly concerned with the build-out and scaled lease payment fees,
which will extend into the future. The execution of an interagency agreement has been
complicated by policy changes at GSA. GSA is attempting to move toward becoming a self-
funded, customer-oriented agency, but its policy considerations have not been defined or
articulated to PTO.

       1. GSA’s fee for the build-out effort

Currently, the two agencies contemplate that GSA will manage the build-out of the cold, dark
shell on behalf of PTO. In consideration for this effort, PTO and GSA are considering a fixed,
percentage-of-cost fee based on actual build-out costs expended, with a fee rate from 3 percent to
9 having been discussed. Comparing these undeveloped interagency agreement terms to
procurement actions for comparable services, we have two concerns: (1) there is no ceiling to the
fee GSA can receive, and (2) the fee rate should be capped in accordance with the FAR, which
limits the maximum fee for architect-engineering firms to 6 percent.




                                               34
U.S. Department of Commerce                                                               Final Report IPE-9724
Office of Inspector General                                                                         March 1998

        a. GSA has unlimited fee potential

Under its oral agreement with PTO, GSA would receive a percentage fee based on the costs
incurred by PTO to accomplish the build-out. The total maximum estimated cost of the build-out
has not been established as a ceiling in the contract. Since GSA’s total potential fee is a
percentage of costs which are not capped, the arrangement has a result similar to a cost-plus-
percentage-of-cost contract, which is expressly prohibited by statute.50 We find the structuring of
GSA’s fee in this fashion to be disturbing because by basing GSA’s fees on total uncapped costs,
it seems to remove any incentive for GSA to monitor costs or rein in over-designing or
overbuilding by PTO.

        b. GSA’s build-out fee should not exceed the statutory limit for contracts

PTO and GSA are discussing the terms of their interagency agreement, including GSA’s build-out
fee rate, for which values of between 3 to 9-percent of estimated costs have been discussed. By
statute,51 fees for architect-engineering contracts “shall not exceed 6 percent of the estimated cost
of construction,” to include program management.52 We believe it inappropriate for PTO to pay
fees to another government agency that would be illegal to pay to a private contractor.53 PTO has
not yet formally agreed to any fee to GSA for managing the build-out. PTO should limit the fee it
pays to any party to one that is within statutorily prescribed rates.

        2. GSA’s scaled fee for the term of lease

In its move toward becoming a profit-oriented organization, GSA has considered charging PTO a
fee based on the value of its lease payments to the developer. The purpose of this fee is to finance
GSA’s lease management on behalf of PTO. GSA and PTO are contemplating the payment of a
fee that is .25 percent of the lease value as reimbursement to GSA for managing the lease. This
payment rate may be scaled up or down in recognition of the age of the facility and the possibility
of PTO’s turning unneeded space back to GSA. Issues complicating this arrangement are that
GSA does not yet have a final policy regarding its business methodology and OMB would need to
approve such an arrangement. Such a fee would make business sense if GSA were responsible for



        50
           41 U.S.C. § 254(b). Cost-plus-percentage-of-cost contracts are regarded as excessive and prohibited by
the government as a matter of policy.
        51
             41 U.S.C. § 254(b).
        52
             48 C.F.R. § 36.102(3).
        53
             41 U.S.C. § 254(b). See also FAR 15.903 (d)(1)(ii).

                                                        35
U.S. Department of Commerce                                                                    Final Report IPE-9724
Office of Inspector General                                                                              March 1998

taking back large amounts of unneeded PTO space. This annual fee would be estimated at
approximately $119,350,54 before escalation of the lease rate to the point of occupancy.55

In order to properly describe the rights and responsibilities and the distribution of risk between
them, PTO and GSA should execute a written interagency agreement identifying the fee policies,
calculation, and payment terms.

B. MOU Needs to Address PTO’s Right to Turn Back Unneeded Space to GSA

When an agency’s needs change and it requires less office space, the FPMR provides for an
agency’s relinquishment of office space back to GSA at no cost to the agency, within 120 days of
notice of vacancy, unless the agency is responsible for operation and maintenance costs, in which
case GSA receives 6 months notice.56 GSA is then responsible for filling the vacant space with
another federal agency customer.

To date, the agencies’ representatives have been relatively unconcerned about the lack of an
interagency agreement controlling PTO’s right to turn back unneeded space to GSA. PTO and
GSA point to the FPMR, claiming that while they are following this regulatory framework, an
agreement is in effect. However, if PTO does attain PBO status in the future, GSA’s statutory
and regulatory responsibility for PTO real estate transactions is not clear. We believe that as the
federal government’s expert in this field, GSA should continue to act as the property manager for
the new leased facility.




         54
              1,989,116 square feet at $24 per square foot multiplied by .0025.
         55
            The lease rate is escalated at an annual rate of 2.9 percent from the date of congressional authorization
to lease award. Since the scaled fee is based upon a percentage of the lease payment, it is also subject to escalation.
         56
           41 C.F.R. § 101-17.204 (a and b), Notice to GSA of Relinquishment of Assigned Space, from
Assignment and Utilization of Space, Federal Property Management Regulations (FPMR) Temp. Reg. D-76, 56
Fed. Reg. 42,166 (1991).

                                                          36
U.S. Department of Commerce                                                    Final Report IPE-9724
Office of Inspector General                                                              March 1998

C. PTO Should Continue Using GSA for the Construction and Management of the Lease
Development

The Public Buildings Act specifies that only GSA may construct buildings designated for federal
government use.57 The legislative history accompanying the PTO PBO legislation specifies that
the lease development project proceed undisturbed.58 Although this language specifies that the
PTO solicitation should proceed under GSA’s direction, it does not specify the agencies’
respective roles after lease award and during the lease period.

PTO has no institutional experience in managing the construction of a leased facility. Therefore,
we believe that GSA should have a continuing role in managing the new facility’s build-out and
operation even if PTO attains PBO status in the future. The operation and management of real
property is apart from the bureau’s mission, GSA is the government expert in this field, and PTO
should not be distracted by these additional responsibilities.

We believe that PTO should execute a written interagency agreement with GSA that clearly
specifies the rights and obligations of each party and allocates project risk. The agreement should
also specify the exact fee arrangements for GSA as the build-out manager and lease manager, and
the extent to which PTO can turn back unused space to GSA. This agreement should be put in
place regardless of whether PTO attains PBO status.




In response to our recommendation that PTO execute a written MOU with GSA, all parties--
PTO, GSA and the Department--have agreed that this should be done. As of this writing,
however, the MOU has not been executed. We encourage PTO and GSA to quickly resolve any
remaining issues of pricing and service delivery. We understand that an MOU between PTO and
GSA is in the late stages of development.

In addition, PTO has held discussions with GSA regarding the negotiation of a fee which would
be based on a fixed percentage of the contract rent, not to exceed six percent. This fee would
cover (1) lease acquisition, including management of all build-out, (2) lease administration,
(3) security, (4) property management, (5) indemnification for PTO’s right to turn back unneeded
space upon a 120-day notice. In addition, GSA policy indicates that the fee shall be negotiated



       57
            40 U.S.C. § 601 and 602a.
       58
            S. Rep. No.42, 105th Cong., 1st Sess. 58 (1997)

                                                        37
U.S. Department of Commerce                                                   Final Report IPE-9724
Office of Inspector General                                                             March 1998

downward to the extent that (1) the size of the project results in economies to GSA or (2) the
agency elects to accept a reduced level of services.

And finally, PTO disagreed with our position that GSA should continue to act as property
manager for the new leased facility. PTO intends to request a delegation of authority from GSA
to manage the consolidated facility.




                                                38
U.S. Department of Commerce                                                    Final Report IPE-9724
Office of Inspector General                                                              March 1998

V.     The Department Needs to Improve Its Real Estate Management Oversight

During our inspection, we discussed the issues detailed in this report with the Department’s real
estate management staff. Generally, we found the Department’s staff to be unaware of many of
these issues before we raised them.

PTO has been granted considerable freedom in pursuing its lease development project. While
aware of PTO’s difficulties in obtaining OMB approval for the prospectus, for example, the
Department neither aided PTO in this process nor worked to revise PTO requests that OMB
found unreasonable.

We are particularly concerned that the Department has not monitored the lease development
project schedule and had not reviewed the terms of the SFO prior to its issuance. Monitoring of
the project schedule would have disclosed that PTO’s late discussions with its unions concerning
space requirements were jeopardizing the POR development and thereby the entire project
schedule. Likewise, departmental officials should have reviewed the SFO before issuance and
identified certain terms to be adverse to the best interest of the government. For example, the
SFO does not have a cost ceiling for the build-out of the building shell.

The departmental real estate management staff needs to stay abreast of large lease and
construction projects such as this and make timely comments to guide the bureaus. In this case,
departmental officials should have been monitoring the progress of PTO’s union discussions and
gauging the implications of delays.

The Department’s real estate management staff should monitor the progress of PTO’s preparation
of the POR and offer guidance and assistance to ensure its timely and successful preparation. The
realty staff should also monitor the progress of the evaluation of the lease development proposals
through to award to ensure that the process is completed as efficiently and quickly as possible.
Finally, the Department should remain involved in the oversight of the leased facility’s
construction.




In response to our recommendation that the Department provide oversight, assistance and
guidance to the PTO space project, the Department has maintained a higher level of involvement
in the project, especially in recent months. The Department has assigned both real property and
procurement personnel to coordinate ongoing planning activities and assist in the source selection
process.


                                                39
U.S. Department of Commerce                                                     Final Report IPE-9724
Office of Inspector General                                                               March 1998

In response to our recommendation that the Department establish effective oversight policies and
procedures for future lease development projects, the Department recently created Chapter 10 of
the Real Property Management Manual. This new chapter describes the policy of the Department
regarding any prospectus-level repair, alteration, construction or lease project for the Department.




                                                40
U.S. Department of Commerce                                                    Final Report IPE-9724
Office of Inspector General                                                              March 1998

                                   RECOMMENDATIONS

We recommend that the Assistant Secretary of Commerce and Commissioner of Patents and
Trademarks take the following actions:

1.     Continue with its lease development project.

2.     Finalize its detailed space requirements analysis for PTO’s future needs. To take
       advantage of the opportunity to forgo the construction of unneeded space, this space use
       plan should be completed before lease award so that PTO can use the plan in its
       negotiations with the offerors.

3.     Continue its efforts toward concluding discussions with the POPA membership union
       employees on work space and its configuration as soon as possible. A timely resolution
       of this matter will facilitate the completion of PTO’s space plans in advance of the lease
       development award so that the bureau is able to specify the POR build-out requirements
       to the developer before the start of work.

4.     Assess the impact of PTO’s reengineering initiatives on the size of the new leased facility
       and factor those estimates into the bureau’s space requirements plan. These estimates
       should reduce staffing requirements and the need for physical storage space for hard-copy
       patent records, to the extent these considerations have not been addressed in the October
       1, 1997 draft Space Allocation Plan.

5.     Prepare a discrete build-out budget before lease development award in October 1998 that
       PTO can incorporate into its negotiations with the developers. PTO should estimate a
       final cost of the build-out and specify this limit in the SFO as an absolute limit of the
       government’s liability for the build-out. Fees should be based on the up-front proposed,
       not actual, costs.

6.     Do not appoint a PTO representative to serve as the contracting officer’s representative
       (COR) until construction is complete and lease payments begin for the new facility. PTO
       should not allow a PTO COR to have the authority to concurrently direct the contractor’s
       work independent of the GSA contracting officer.

7.     Specify that the developer/lessor must accumulate costs at the lowest individual task level
       before lease development award, in order to control and monitor costs during the build-
       out phase.

8.     Execute a written interagency agreement with GSA to record the terms and conditions of
       the agencies’ oral understandings. This agreement should specify the rights and

                                               41
U.S. Department of Commerce                                                      Final Report IPE-9724
Office of Inspector General                                                                March 1998

       responsibilities of each agency, allocate project risk, set levels and payment terms of fees,
       specify conditions for turning back unneeded space to GSA, and define GSA’s role in the
       continuing development and operation of the lease, especially in light of PTO’s potential
       reorganization as a performance based organization. The agreement should also be
       cleared through the Office of General Counsel (OGC).

9.     Do not agree to any arrangement with GSA in which the GSA fee to be paid is set as a
       percentage of costs which are not capped.


We recommend that the Chief Financial Officer and Assistant Secretary for Administration:

10.    Provide oversight, assistance, and guidance to ensure that PTO completes its POR space
       requirements in time to avoid delaying lease award. In addition, the Department’s real
       estate management staff and procurement oversight staff should review the terms of the
       SFO, lease award, and interagency agreement with GSA to ensure that the project
       incorporates terms and conditions that are acceptable to the Department.

11.    Establish effective oversight policies and procedures for future lease development and
       construction procurement actions conducted by PTO or other Commerce bureaus,
       regardless of whether these are under independent leasing authority or under the auspices
       of GSA. These policies and procedures should ensure that the Department reviews and
       approves the project at its earliest stages through to completion.




                                                 42
